<html>
<title> - TIANANMEN AT 25: ENDURING INFLUENCE ON U.S.-CHINA RELATIONS AND CHINA'S POLITICAL DEVELOPMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
TIANANMEN AT 25: ENDURING INFLUENCE ON U.S.-CHINA RELATIONS AND CHINA'S 

                         POLITICAL DEVELOPMENT
=======================================================================



                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2014

                               __________

 Printed for the use of the Congressional-Executive Commission on China


        Available via the World Wide Web: http://www.cecc.gov




                  U.S. GOVERNMENT PRINTING OFFICE
88-495                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS


Senate                                 House

SHERROD BROWN, Ohio, Chairman        CHRIS SMITH, New Jersey, 
CARL LEVIN, Michigan                 Cochairman
DIANNE FEINSTEIN, California         FRANK WOLF, Virginia
JEFF MERKLEY, Oregon                 ROBERT PITTENGER, North Carolina
                                     MARK MEADOWS, North Carolina
                                     TIM WALZ, Minnesota                                     MARCY KAPTUR, Ohio
                                     MICHAEL HONDA, California


                     EXECUTIVE BRANCH COMMISSIONERS

              NISHA DESAI BISWAL, U.S. Department of State

                    Lawrence T. Liu, Staff Director

                 Paul B. Protic, Deputy Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Sherrod Brown, a U.S. Senator from 
  Ohio; Chairman, Congressional-Executive Commission on China....     1
Smith, Hon. Christopher, a U.S. Representative from New Jersey; 
  Cochairman, Congressional-Executive Commission on China........     3
Walz, Hon. Tim, a U.S. Representative from Minnesota; Ranking 
  Member, Congressional-Executive Commission on China............     4
Roy, Hon. Stapleton, Former U.S. Ambassador to the People's 
  Republic of China, 1991-1995...................................     6
Lord, Hon. Winston, Former U.S. Ambassador to the People's 
  Republic of China, 1985-1989...................................     8
Lee, Liane, Eyewitness to June 4th Events as Part of Hong Kong 
  Federation of Students Delegation..............................    21
He, Rowena, Lecturer, Harvard University.........................    22
Wasserstrom, Jeffrey, University of California-Irvine............    24

                                APPENDIX
                          Prepared Statements

Lord, Hon. Winston...............................................    34
Wasserstrom, Jeffrey.............................................    35

Brown, Hon. Sherrod..............................................    38
Smith, Hon. Christopher..........................................    39



TIANANMEN AT 25: ENDURING INFLUENCE ON U.S.-CHINA RELATIONS AND CHINA'S 
                         POLITICAL DEVELOPMENT

                              ----------                              


                          FRIDAY, MAY 20, 2014

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 3:36 p.m., 
in room 562 Dirksen Senate Office Building, Senator Sherrod 
Brown, Chairman, presiding.
    Present: Representative Christopher Smith, Cochairman; and 
Representatives Tim Walz and Mark Meadows.

 OPENING STATEMENT OF HON. SHERROD BROWN, A U.S. SENATOR FROM 
  OHIO; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Brown. The China Commission will come to order.
    Thank you for joining us, Congressman Walz, and especially 
Cochair Congressman Smith from New Jersey. Nice to see you. 
Ambassador Roy, Ambassador Lord, we particularly welcome you. 
There will be a second panel also.
    I'll make a brief opening statement and then turn it over 
to Congressman Smith and Congressman Walz, then we'll hear from 
the witnesses.
    We remember an event that occurred 25 years ago next month 
but continues to resonate in so many ways. Millions of people 
across China, not just in Beijing's Tiananmen Square, rallied 
in support of democracy and human rights and an end to 
corruption.
    Like many Americans of the time, I was inspired and moved 
by the courage in their pursuit of those fundamental freedoms, 
freedoms that we hold dear universally--internationally 
recognized rights--freedoms and rights that we sometimes take 
for granted.
    I recall the optimism of the moment, how it was crushed 
when troops and tanks rolled in. Today we assess what the last 
25 years have meant and what our policies should be toward 
China. In my view, opportunities were missed after Tiananmen.
    We missed an opportunity to integrate China into the global 
community while ensuring that our economic interests were 
protected and that China moved in the right direction on 
political reform not, of course, an easy task to be sure, but 
25 years later China is still a fundamentally undemocratic 
country, one that stubbornly refuses to play by international 
rules of law.
    In many respects, China reaped the benefits of open trade 
with the rest of the world while avoiding many of its 
obligations. In China, 800 million people still don't enjoy the 
basic right to vote. Chinese citizens, including those who in 
recent weeks have bravely tried to commemorate those events of 
a quarter century ago, are in prison simply for peacefully 
exercising their right to free speech, to assembly, to 
religion. These include human rights lawyers Pu Zhiqiang and Hu 
Shigen.
    A generation of people inside and outside China knows 
little about the events that transpired back then, other than 
the government's official line. Emboldened by growing economic 
clout that we in many ways supported, Chinese Communist leaders 
are sowing instability through alarming and increasingly risky 
attempts to exert territorial claims in the region.
    Just yesterday we were reminded of the lengths China will 
go to gain an unfair advantage for its state-owned enterprises 
and industries. Our Department of Justice charged five members 
of China's People's Liberation Army with hacking into computer 
networks of the United Steelworkers Union and major U.S. 
companies like U.S. Steel, ALCOA, and Allegheny Technologies.
    This, we think, is just the tip of the iceberg. In 1989, 
our trade deficit with China stood at $6 billion. The trade 
deficit has grown by a multiple of 50, to $318 billion, the 
highest ever. That trade deficit and China's currency 
manipulation have cost Americans millions of jobs, and has had 
a major impact on our trade deficit.
    In the end, we compromised too much and bought into the 
myth that China's economic integration after Tiananmen would 
inevitably bring about human rights and respect for 
international law. Congressman Smith has talked about this for 
the 20 years that I have known him. That is not what happened.
    The question now is, how do we fashion a better policy 
toward China? Through this commission we have tried to honor 
the memory of Tiananmen Square by making sure China's human 
rights and rule of law are not forgotten in our discussions 
over China.
    Over the past year we have highlighted many concerns: Cyber 
theft, threats to democracy in Hong Kong, illegal and unfair 
trade practices, denial of visas to foreign journalists, food 
safety, environment and public health concerns, and a crackdown 
on human rights activists, including advocates for the Uyghurs 
in Xinjiang, in that part of China.
    In the Senate, I have pushed a bipartisan bill on currency 
manipulation which has passed the Senate overwhelmingly. It is 
my hope that we have an open and transparent debate about China 
policy, whether it be on trade agreements that relate to China 
or in growing Chinese foreign investments in this country. Our 
debate should give proper weight to--rather than ignore our 
concerns over--human rights, the rule of law, labor, public 
health, and the environment.
    Above all, the debate must include all segments of our 
society, from our workers in small businesses to non-
governmental organizations and human rights groups instead of 
just being led by powerful interest groups such as large 
corporations, some of which themselves have a checkered history 
in China.
    Only in doing so and continuing to work for improvements in 
China's human rights and rule of law record that we can 
faithfully honor the memory of Tiananmen Square and ensure that 
the sacrifices were not made in vain.
    Chairman Smith?

STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. REPRESENTATIVE FROM 
 NEW JERSEY; COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Representative Smith. Thank you very much, Mr. Chairman, 
most importantly for calling this vitally important hearing and 
for inviting such distinguished witnesses as we will hear from 
momentarily on both panels, but including two highly 
distinguished diplomats who tried to ameliorate the abuses that 
were occurring in the lead-up to, and then during, Tiananmen 
Square, and for their work using every diplomatic means 
available to them to promote democracy and freedom and trade 
that was principled, free, and fair.
    I want to thank them for their extraordinary service to our 
country and to the Chinese people as well who benefited from 
your stewardship as diplomat and Ambassador to the People's 
Republic of China. Thank you very much, both of you.
    Twenty-five years ago, the world watched as millions of 
Chinese gathered all across China to peacefully demand 
political reform and democratic openness. The hopes and 
promises of those heady days ended with wanton violence, tears, 
bloodshed, arrests, and exile. We must continue to honor the 
sacrifices endured by the pro-democracy movement, by advocates 
for independent labor unions, and those demanding fundamental 
human rights for all Chinese.
    Mothers lost sons, fathers lost daughters, and China lost 
an idealistic generation to the tanks that rolled down 
Tiananmen Square on June 4, 1989. Tiananmen Square has come to 
symbolize the brutal length the Chinese Communist Party will go 
to remain in power. We remember Tiananmen annually here in 
Congress because of its enduring impact on U.S.-China 
relations.
    We remember it also because an unknown number of people 
died, were arrested, and exiled for simply seeking universally 
recognized freedoms. We will continue to remember Tiananmen 
until the Chinese people are free to discuss openly the tragic 
events of June 3-4, 1989, without censorship, harassment, or 
arrest.
    We in Congress remain committed to the people of China 
struggling peacefully for human rights and the rule of law. The 
prospects for greater civil and political rights in China seems 
as remote today as it did the day after the tanks rolled 
through the square.
    In 1989, the Chinese Government used guns and tanks to 
suppress the people's demands for freedom and transparency. In 
2014, they use arrests, discrimination, torture, and censorship 
to discourage those who seek basic freedoms and human rights. 
The names may change, but the ends remain the same: Crush 
dissent at all costs because it challenges the authority of the 
Communist Party.
    This has been one of the worst years in recent memory for 
the suppression of human rights activists in civil society. Xi 
Jinping's tenure as president, which started with so much 
promise of a new beginning, has proven that the old tactics of 
repression will be used liberally against dissent. Top 
Communist Party officials regularly unleash bellicose 
statements on universal values and Western ideals.
    In the past year, over 220 people have been detained for 
their defense of human rights. The more things change in China 
the more they stay the same. While the hopes of Tiananmen 
Square demonstrators may have not been realized, their demands 
for freedom of speech, basic human rights, political reforms, 
and the end of government abuse and corruption continue to 
inspire the Chinese people today. These are universal desires 
not limited by culture, language, or by history.
    There is an impressive and inspiring drive in Chinese 
society to keep fighting for freedom under very difficult and 
dangerous conditions. This drive is the most important asset in 
promoting human rights and democratization in the country. If 
democratic change comes to China it will come from within, not 
because of outside pressure, although that pressure is needed.
    U.S. policy, both short- and long-term, must be and must be 
seen to be supportive of advocates for peaceful change, 
supportive of the champions of liberty and civil society in 
China seeking to promote human rights and freedoms for 
everyone, not only to pad the economic bottom line.
    Our strategic and moral interests coincide when we seek to 
promote human rights and democratic openness in China. A more 
democratic China, one that respects human rights and is 
governed by the rule of law is more likely to be a productive 
and peaceful partner rather than a strategic and hostile 
competitor.
    This future should also be in China's interests because the 
most prosperous and stable societies are those that protect 
religious freedom, freedom of speech, and the rule of law. We 
in Congress remain committed to the people of China struggling 
for universal freedoms.
    There is no partisan divide on this, to move the Chinese 
Government away from the past and embrace the greater openness, 
democracy, and respect for human rights that its people called 
for 25 years ago and continue to call for today.
    Mr. Chairman, I do regret that I have a bill on the floor 
of the House probably in 10 minutes called International 
Megan's Law, but I will read the transcript and, of course, the 
submissions by our distinguished witnesses.
    I thank you again for calling this very timely and 
important hearing.
    Chairman Brown. Thank you very much for your comments and 
your service.
    Congressman Walz?

    STATEMENT OF HON. TIM WALZ, A U.S. REPRESENTATIVE FROM 
 MINNESOTA; RANKING MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION 
                            ON CHINA

    Representative Walz. Thank you, Chairman. Thanks to my 
colleague, Mr. Smith, for his longstanding support of human 
rights around the globe. I, too, am thankful for our witnesses 
on both panels. It's a great opportunity for us to hear. I 
would echo both my colleagues' statements that this is an 
important conversation to have.
    I'm looking at the title of this, ``Tiananmen at 25: the 
Enduring Influence on U.S.-China Relations on China's Political 
Development.'' I think that may be true to a certain level, but 
I'm also very cognizant there's an entire generation of 
Americans who don't understand what happened there, they don't 
understand what the impact of it was.
    I think many of them, once they knew, would stand proudly 
with those fighters of human rights. I think for all of us if 
we do not commemorate and we do not remember those who were 
willing to risk all, it puts all of us at risk of history 
forgetting the lessons that were there. For me, it certainly 
had enduring influence on me. As a young man I was just going 
to teach high school in Foshan in Guangdong province and was in 
Hong Kong in May 1989. As the events were unfolding, several of 
us went in. I still remember the train station in Hong Kong.
    There was a large number of people--especially Europeans, I 
think--very angry that we would still go after what had 
happened. But it was my belief at that time that the diplomacy 
was going to happen on many levels, certainly people to people, 
and the opportunity to be in a Chinese high school at that 
critical time seemed to me to be really important.
    It was a very interesting summer to say the least, because 
if you recall as we moved in that summer and further on, and 
the news blackouts and things that went on, you certainly can't 
black out news from people if they want to get it. I can still 
clearly remember when the Berlin Wall fell and what was 
happening. So I think it's important to put it in historical 
context of what was happening.
    For me, the conversations were fascinating. It was 
interesting to watch many of those Chinese who so recently had 
come through the Cultural Revolution, express concerns about 
what would happen if you upset the fruit basket, if you will, 
type of thing. I think it's important for many to understand 
here why maybe there wasn't a broader societal response to what 
had happened.
    The lesson to me, though, was when you watch these things 
happen you can justify and make up in your mind any reason 
possible that you didn't stand up or that something didn't 
happen or that no one remembered. So, as being part of this 
commission, I take the charge very seriously, both looking at 
the human rights records, looking at all those things, but 
clearly understanding the human rights and the friendships and 
the people that I know. It's critical to get this right. It's 
critical for us to understand and it's certainly critical for 
us as Americans to do soul-searching of our own.
    No one is under the belief that we have reached that 
perfect union. It's toward a more perfect union, but I think as 
we watch and as this commemoration comes forward, I think it's 
critically important globally that we mark this in the right 
tone, we listen to the experts who were there before and after, 
the witnesses who were there, and then understand what the 
implications of this are because I think many of us, as you 
know, for many people it would just be convenient to just 
pretend it didn't happen, just pretend we moved on, just 
pretend for all involved. But that's not what we can do. That's 
not what the memory of those people that stood there deserve. 
So I, for one, am again thankful for this commission, thankful 
for the folks who are standing here, and look forward to the 
testimony.
    I yield back.
    Chairman Brown. Thank you, Mr. Walz.
    We are joined by Congressman Meadows from North Carolina, 
too. Thank you.
    Welcome to the two witnesses. Ambassador Stapleton Roy was 
born in Nanjing and went on to a career in the Foreign Service, 
spanning some 45 years. He was Ambassador to the People's 
Republic of China from 1991 to 1995, and also served our 
country as Ambassador to Singapore and Indonesia. He 
participated in the secret negotiations to establish diplomatic 
relations with the People's Republic of China. Ambassador Roy 
is at the Woodrow Wilson International Center for Scholars here 
in Washington.
    Ambassador Winston Lord's career in U.S.-China relations 
has spanned the last four decades. In the 1970s, he accompanied 
Henry Kissinger and Presidents Nixon and Ford on all nine of 
their trips to China. He served as Ambassador to China under 
Presidents Reagan and George H.W. Bush. He was Assistant 
Secretary of State for East Asian Affairs under President 
Clinton. Ambassador Lord has served as President of the Council 
on Foreign Relations. He is currently the Chairman Emeritus at 
the International Rescue Committee.
    We will begin with five-minute opening statements from 
Ambassador Roy, thank you, and from Ambassador Lord.

STATEMENT OF HON. STAPLETON ROY, FORMER U.S. AMBASSADOR TO THE 
             PEOPLE'S REPUBLIC OF CHINA, 1991-1995

    Ambassador Roy. Mr. Chairman, distinguished commissioners, 
I am honored to have this opportunity to appear before this 
commission to discuss my experience as U.S. Ambassador in China 
in the aftermath of Tiananmen, the impact of that event on 
U.S.-China relations, and my views on the best way to pursue 
human rights diplomacy with China.
    It is a pleasure for me to appear before this commission 
with my friend and colleague, former U.S. Ambassador to China 
Winston Lord.
    My views on the human rights situation in China in the 
period after Tiananmen are contained in the human rights 
reports which the Embassy submitted annually to Washington. As 
the Deputy Assistant Secretary of State responsible for China 
during the latter years of the Reagan administration and 
briefly in the first Bush administration, I was deeply involved 
in Chinese affairs from October 1986 through President George 
Herbert Walker Bush's visit to China in February 1989.
    Beginning in March 1989, I was the Executive Secretary of 
the State Department for the next two years and no longer had 
any policy responsibilities for China until I arrived in 
Beijing as the U.S. Ambassador in August 1991.
    Three impressions struck me immediately on my return to 
China in 1991. First, was the widespread availability of 
consumer goods that had been in short supply during my first 
assignment in Beijing from 1978 to 1981. This was a direct 
result of the price reforms that had been introduced in the 
mid-1980s.
    Second, was the shift in attitude on the part of the 
Chinese who had been sympathetic to the goals of the student 
demonstrators in Tiananmen in the spring of 1989. 
Overwhelmingly, I encountered the view based on their hindsight 
that the demonstrators had been too uncompromising in their 
approach and had set back the cause of political reform in 
China.
    This is quite separate from the question of whether the 
Chinese Government had been justified in using force to quell 
the demonstrators. While the Chinese Government strongly 
defended the position that it had acted appropriately in June 
1989, I did not encounter this view in non-official circles.
    Third, I was struck by the degree to which images of China 
in the United States were out of touch with realities on the 
ground. This was less evident during my first year in Beijing, 
but it became glaringly obvious during the summer and fall of 
1992 when the economic reform forces in China strengthened 
their position and strongly reaffirmed China's pre-Tiananmen 
reform and openness policies at the 14th Party Congress of the 
Chinese Communist Party in October 1992.
    By the spring of 1993, Americans were flocking back to 
China in growing numbers. Without exception, those who met with 
me expressed shock and amazement that conditions in China were 
so much better than they had been led to believe by the U.S. 
media. Never before or since in my Foreign Service career did I 
encounter such a large gap between perception and reality.
    This perception gap related to conditions of life in China 
in terms of the rising levels of prosperity, the openness of 
society, the freedom of movement, and the access to 
information. It did not relate to the human rights situation in 
China, which remained oppressive.
    During my assignment as U.S. Ambassador in Beijing, the 
Chinese Government was no more willing to accommodate political 
dissent than before and moved quickly to suppress any forms of 
political or social organization that did not have government 
authorization.
    This had a negative impact on organizations such as the 
Falun Gong and on the house churches which operated outside the 
government-approved framework for organized religion. Within 
that framework, however, membership in religious organizations 
was rapidly expanding and churches were overflowing with 
worshippers of all ages.
    As regards prospects for political change in China, some 
clues were contained in the communique of the Third Plenum of 
the Central Committee last November. The plenum communique was 
notable for its stress on strengthening market forces in the 
Chinese economy, affirming Party leadership, enhancing rule by 
law--not rule of law--and maintaining stability.
    As expected, the plenum did not introduce any bold 
political reforms. The communique continued to talk of 
developing ``primary level democracy,'' suggesting that the Xi 
regime is not in any rush to expand representative governance 
above the primary level.
    That said, the communique was noteworthy for the emphasis 
put on ``governing the country in accordance with the law, 
strengthening a system of restraining and supervising the use 
of power, and ensuring that judicial and procuratorial bodies 
independently and impartially exercise their respective powers 
pursuant to law.''
    Expanding on this concept of putting checks on power, the 
communique pointed out that ``to ensure proper exercise of 
power it is important to put power, Party, and government 
operations and personnel management under institutional 
checks.''
    To drive these points home, the communique added the 
assertion that ``letting the people exercise supervision over 
power and letting power be exercised in broad daylight is the 
fundamental way to keep power within the cage of regulations.''
    While one should not read too much into these statements, 
they certainly constitute building blocks for gradually moving 
toward greater institutional checks on the exercise of power, 
something that has been sadly lacking in Chinese practice to 
date.
    My point is: the language of discourse in China on 
political reform issues is changing. I do not recall before 
language referring to the need for checks on the exercise of 
power, and that is beginning to enter into the domestic 
dialogue in China.
    Mr. Chairman, I hope we can explore these issues in greater 
detail during the question and answer period. Thank you.
    Chairman Brown. Thank you very much, Ambassador.
    Ambassador Lord?

 STATEMENT OF HON. WINSTON LORD, FORMER U.S. AMBASSADOR TO THE 
             PEOPLE'S REPUBLIC OF CHINA, 1985-1989

    Ambassador Lord. Well, I pay tribute to this commission for 
its meticulous survey of the Chinese landscape over the years 
and U.S.-China relations. It is my pleasure appearing with 
Ambassador Roy. We have worked closely in and out of 
government. I will say here what I say behind his back: he's 
one of the top three or four diplomats in our generation.
    Cochairmen and members of the commission, I am honored to 
appear once again before this commission. I am inspired by your 
renewed commemoration of events that will be enshrined in 
history. In the words of Lu Xun, ``Lies written in ink cannot 
disguise facts written in blood.''
    We gather at a melancholy time. The Chinese authorities 
continue to distort and erase the spring of 1989. They continue 
to withhold answers from the mothers of the fallen, and they 
seem more determined than ever to squash basic freedoms.
    In five minutes I can only employ brush strokes to evoke 
the China scene and the implications for American policy. 
Please bear in mind, as I speak with the candor I use with my 
Chinese friends, that I have worked to promote relations with 
China ever since the Kissinger secret trip of 1971, and I will 
continue to do so. It's in our national interest.
    My three principal conclusions up front: (1) The political 
system in China is unjust and inhumane. It is getting worse; 
(2) American efforts to promote freedom have yielded slight 
results but should endure; and (3) the near term prospects are 
bleak, but in the longer run change from within will open 
China.
    Now, certainly the landscape has radically changed since 
the disastrous 1950s and 1960s whenever the freedom of silence 
was not allowed and in certain important areas China continues 
to improve. Chinese can compete for college, choose their work, 
change their residence, and travel. They can grouse loudly 
among friends, selectively in social media.
    Awesome economic progress has lifted the horizons of 
hundreds of millions. But in certain key domains, the screws 
have been tightened, especially in recent years. The weekly 
salons for officials, academics, artists, and dissidents that 
my wife and I hosted in the late 1980s at our official 
residence can no longer take place.
    The Party persecutes not only a blind activist, but also 
his relatives. It locks up not only a Nobel Prize winner, but 
his ill wife. It rounds up not only reformers, but those who 
defend them. It not only jails the troublesome, but forces them 
to confess on television. It not only mistreats Tibetans, but 
punishes governments that host the Dalai Lama. It not only 
smothers the domestic Internet and media, but threatens foreign 
journalists and spurs self-censorship from Bloomberg to 
Hollywood.
    U.S. administrations of both parties have tried through a 
variety of means to encourage greater freedom, from selective 
sanctions to trade conditions to private dialogues and public 
shaming, all to scant avail.
    Other players undercut our official efforts. Few 
governments will even raise the subject of human rights. In 
America, contract-hungry business bosses, visa-anxious 
scholars, and access-seeking former government officials 
ignore, tiptoe around, even rationalize Chinese suppression. 
Should we therefore bury this issue? No.
    Certainly it cannot dominate our agenda, which features 
critical security, economic, and political stakes. We derive 
enormous benefits from our economic relations and our bilateral 
exchanges. On many global problems we share common concerns and 
the Chinese can be helpful: The curses of terrorism and nuclear 
weapons; shipping lanes and piracy; climate change and clean 
energy; health and food safety; and drugs and crime.
    There are also many serious problems with China that I do 
not have time to elaborate. We have just seen a new one this 
week that Senator Brown, Congressman Smith, and Congressman 
Walz have outlined.
    On regional issues, the Chinese posture varies: helpful on 
Afghanistan and Sudan, unhelpful on Syria, mixed on Iran and 
North Korea. Beijing has become downright provocative and 
dangerous with its probes in the East China Sea, its bullying 
in the South China Sea, and its unilateral declaration of an 
Air Defense Identification Zone.
    Indeed, in its maritime encroachments Beijing evokes 
Moscow's policy toward its neighbors. It also has great unease 
about Moscow's policy. The Chinese don't like minorities 
appealing to outside powers that come in, obviously. But in 
many ways--and I can list at least 10--there are similarities.
    Despite this daunting agenda, we should continue to 
advocate for human dignity in China. This reflects our values 
and international norms, it maintains public and congressional 
support for our overall policy, it heartens Chinese reformers, 
and it serves concrete national interests. Free societies do 
not go to war against each other, harbor terrorists, hide 
natural and man-made disasters, or spawn refugees.
    We should proceed, however, without arrogance. Above all, 
we should progress here at home. Gridlock and polarization in 
this city sabotages our champion of democratic values abroad.
    Many avenues exist to nourish liberty: Private dialogue; 
public stances; and exchanges between non-governmental 
organizations on topics like civil society, rule of law, and 
the environment. Expand Voice of America and Radio Free Asia; 
increase funding for new technology to break the Chinese 
firewall; pursue the U.N. Commission's indictment of China's 
abetting North Korean crimes against humanity; retaliate 
against Chinese harassment of foreign journalists; and support 
free elections in Hong Kong.
    We should thus persist across a broad front. But change in 
China will not result from outside encouragement or pressures. 
It must come from the Chinese themselves. We must appeal to 
China's own interests: The rule of law, freedom of the press, 
an independent judiciary, a flourishing civil society, and 
accountable officials would promote all of China's primary 
goals: economic progress, political stability, reconciliation 
with Taiwan, good relations with America, international stature 
and influence.
    Members of the Commission, given the dark clouds, it is 
tempting to be pessimistic about the future of freedom for one-
fifth of humanity. I do believe, however, that a more open 
society will emerge, impelled by universal aspirations, self-
interest, a rising middle class, the return of students, and 
the explosive impact of social media.
    No one can predict the pace or the contours of the process. 
We might as well consult fortune cookies. Nevertheless, one day 
mothers will have answers, Chinese history books will record 
heroes not hooligans, and the promise of the Chinese Spring 
will finally shape the destinies of a great people and a great 
nation.
    Thank you.
    Chairman Brown. Thank you, Ambassador Lord.
    For both of you, take yourselves back a decade and a half, 
1999, President Clinton asked the Senate and the House--I was a 
Member of the House then--for permanent normal trade relations 
[PNTR] with China, talking about jobs. U.S. CEOs came to 
Washington and spoke about wanting access to a billion Chinese 
consumers.
    Others said that what they really want is access to a 
billion Chinese workers. Both President Clinton, CEOs, and 
newspaper editors were almost unanimous in their support for 
PNTR in those days. Virtually all the major liberal and 
conservative newspapers argued that PNTR would open up trade 
and bring sweeping changes to China: Human rights, respect for 
the rule of law, democracy. The promise of PNTR was all of 
that. Your comments, especially Ambassador Lord's, but the 
comments of both of you suggest movement in the opposite 
direction in many ways.
    So my first question is addressed to Ambassador Lord. What 
did we learn, perhaps in the first decade after Tiananmen 
Square, but especially since PNTR in 1999-2000, about the 
actual relationship between trade, human rights, and how that 
should inform our policy going forward?
    Ambassador Lord. I was in the middle of this issue and I 
negotiated conditional MFN [most-favored nation] with 
Congresswoman Pelosi and Senator Mitchell. What we did was to 
establish conditions for renewing trade privileges, but 
moderate conditions. Meaningful ones, but ones we thought the 
Chinese could meet.
    To tell you a little secret, we were making some progress 
but the economic agencies undercut us. We have huge economic 
stakes with China--they were not enthusiastic and undercut our 
policy. President Clinton did not back up the State Department 
to carry out his own policy. We had a split administration. The 
Chinese took advantage of that and therefore didn't move on 
human rights in a significant way and we had to reverse policy 
and pursue human rights in other ways. So it was a failed 
experiment.
    I think reasonable people can disagree. I was reluctant to 
have any conditions for a long while, but I finally decided 
moderate conditions were the way to go. I respect those who 
felt that this was not going to move the Chinese. Regime 
stability was their number-one goal then and it remains that 
today.
    Now, I do think expanding trade and investment are in our 
national interest. It helps American workers and jobs and 
exports. There are some serious economic frictions with China, 
like intellectual property rights, cyber warfare, currency 
manipulation, their favoring through subsidies of their state 
enterprises. We have to negotiate and be firm on all of these.
    But despite the deficit and despite other problems, I think 
we should continue our deep economic engagement. It's not going 
to bring about--to get to your question--a free China in and of 
itself. I do think it helps the general conditions of the 
Chinese people, it helps our economy. In any event, we need to 
pursue promoting democracy in the other ways that I mentioned.
    Chairman Brown. Okay. Thank you. We can debate what it does 
for our economy, but that's another day.
    Ambassador Roy, talk about the role of--and partly 
answering his concerns and my question to Ambassador Lord about 
how do we go forward, talk about the role of U.S. corporations 
and our failure as a nation--I'm not saying only corporations' 
failure, but as a nation--talk about the role of U.S. companies 
and our failure to advance human rights in China.
    There clearly has been--while the promise of PNTR was that 
U.S. companies would play some role in the advancing of human 
rights, that has fallen perhaps even more short than the U.S. 
Government playing a role in human rights. What are your 
thoughts there on their role in that for good and for bad, and 
especially more importantly, that looking back is looking 
forward on the role of U.S. companies and U.S. investment in 
China?
    Ambassador Roy. My experience with U.S. companies is that 
their principal motive is to make their companies as profitable 
as possible, and their actions are largely geared to that 
objective. When they operate in foreign countries, they 
nevertheless can represent a positive aspect of American 
society insofar as they pay their workers decent wages, give 
them health and other protections as desirable, and pursue what 
I would call good responsible business practices.
    That sets a standard that, in many of the countries that I 
have served in, are not typical of the local business 
practices, so in that sense they can carry a positive aspect of 
what we stand for in terms of what business practices should 
be.
    I do not find that businessmen are motivated to promote 
human rights at the expense of their business interests, and I 
think it would be a misunderstanding of how corporations 
function to expect them to do so. However, in certain 
respects--for example, in Indonesia particularly--the Foreign 
Corrupt Practices Act was an issue.
    I did not encounter hostility on the part of the business 
community to the fact that we had a law that made corrupt 
practices by American corporations abroad punishable, and I 
would have very frank dialogues with the members of the 
American business community on that question.
    So I think that we should not misinterpret what business is 
about, but at the same time I think that we should consider 
ways in which we can reinforce the positive images that well-
managed companies can convey to other countries where the labor 
practices, the wage practices, et cetera, are substandard.
    Let me briefly comment on a point that Ambassador Lord 
touched on. There is a connection between economic development 
and political change, but it is not automatic. east Asia is a 
rare region of the world. It is the only region that I am aware 
of where, after 40 years of rapid economic development, without 
exception, authoritarian governments have given way to 
representative governments.
    In three out of the four cases that I can cite, it was a 
violent transition. I was in Indonesia as Ambassador when that 
occurred. In only one instance, the economy of Taiwan, where 
Chiang Ching-kuo, the leader, prepared for the transition, it 
was smooth, so smooth that most Americans barely noticed what 
took place.
    In South Korea, in Taiwan, in Thailand, and in Indonesia, 
political change took place on the back of sustained economic 
development. Two additional factors, however, are important. 
They were open to the outside world. These were not closed 
societies. Second, their economies were imbedded in the global 
economy.
    So I do not take the position that if China continues 
economic development it will automatically move to a democratic 
government. But based on the examples in east Asia, I would 
rather bet that those pressures are going to become 
overwhelming in China than bet on the reverse, as long as China 
remains open and as long as the economy remains imbedded in the 
global economy.
    So I don't think that we should argue that economic 
development is irrelevant to political change because political 
change to democratic systems of government rests on the 
emergence of middle classes. Indonesia had democratic elections 
in 1955. It lasted two years, and they went back to guided 
democracy, which was authoritarian rule.
    When democratic elections again occurred in 1999, Indonesia 
has, for over 12 years now, sustained a democratic system of 
government, and that is on the back of the middle classes. It 
was the students of the middle classes that were the moving 
force in the demonstrations that eventually resulted in 
President Suharto stepping down from power. So I think we need 
to look at concrete examples and not simply look at this in 
terms of theory.
    Ambassador Lord. Could I add to that?
    Chairman Brown. Sure.
    Ambassador Lord. I was going to make the same points in the 
sense that I think there are universal aspirations for freedom, 
and we've seen that in a Chinese society like Taiwan. I think 
the phenomenon there will come to China. I think your point is 
well taken. The view that in the short term economic reforms 
and progress are going to lead to democracy are too optimistic.
    I do think there are positive elements at work. The Chinese 
middle class has not yet reached the point that South Korea, 
Taiwan, and Chile and some of the others did, but Beijing is 
getting to a point now where it is going to have to go change 
the economic policy since Deng. The Chinese are at an 
inflection point.
    They're going to need innovation, they're going to need 
energy, they're going to need entrepreneurship, they're going 
to need a more pluralistic society. So I think in their own 
self-interest there's going to be forces at work for a freer 
system, along with whatever we can do to encourage this trend. 
Above all social media should promote this process.
    So what I'm saying is, the decades of economic progress and 
reforms have not brought about immediate success, but I think 
over the long run they will have the impact that Ambassador Roy 
has said.
    Chairman Brown. Thank you. Let me ask one more question and 
I'll turn it over to Congressman Walz and Congressman Meadows. 
You said we may have been too optimistic. We were too 
optimistic, as we were told by people in this country lobbying 
for PNTR that we should be optimistic that something would 
happen faster, but I guess that's kind of the way it is.
    One more question. PNTR provided an opportunity, for want 
of a better word. This perhaps was happening elsewhere, but it 
is so accelerated with China. For a U.S. business to begin to 
come up with a whole new business plan, if you will, across 
many, many industries, that was the incentives of PNTR--again, 
if that's the right word, the incentives of PNTR encouraged 
U.S. companies to do something that I don't know in world 
economic history that businesses have ever kind of followed 
this business plan, and that is to shut down production in 
Steubenville or Cleveland, Ohio, and move production to Xian or 
Wuhan, China, get a tax break for it--that's a whole other U.S. 
Tax Code issue--but then sell the products back into the home 
country.
    I guess I'm not asking for a comment on that as much as 
just a recognition that that's partly what PNTR did, and when 
you talk about what it has meant to the U.S. economy, it has 
surely meant that, that companies--I've heard a major company 
in my State who lobbied hard for PNTR, after it passed he told 
me he had to move production to China because those are the 
rules and my competitors have done that.
    So it opened up something different and you can't exactly 
blame the companies that made those decisions to move and then 
sell production back here, except those were the same companies 
that were lobbying me and others in both Houses for PNTR. But 
that's more a comment than a question.
    Mr. Walz?
    Representative Walz. Well, thank you, Mr. Chairman. Thank 
you both. It is so refreshing to hear the rejection of the 
simplistic look at things and to get at the heart of this 
because we do have to figure this out. We do have to understand 
and I do feel a sense of responsibility, asking those concrete 
things we need to do. I would say for both of you, but 
Ambassador Lord, your opening statement and call to action, my 
only hope would be that all of my colleagues could hear that.
    I think it was eloquent, it was on point, and it cut 
through that. I think your point about it here is, we can't 
agree it's Tuesday in this body. It's very difficult to talk 
about basic universal human rights and what we can do on a 
global economic scale on the very important issues that the 
Senator brought up.
    One thing I'd like to ask Ambassador Roy, something you 
mentioned and I am interested in, you're hearing a change in 
the language, you said. You're hearing a change for the first 
time of a recognition of that, probably, as we think, most of 
us, predicated on this growing--I think this growing belief 
that as the middle class grows there's going to be this force 
for change in things that are happening. But what can you 
attest now? Why at this point do you think you're hearing it 
when you didn't hear it before in the language on power and the 
need to have that balance?
    Ambassador Roy. That's an excellent question, and I've been 
thinking about it. The fact is that China is not simply 
changing economically because of its rapid development; the 
nature of society is changing. We now have over three decades 
of large numbers of Chinese going abroad. The Chinese middle 
class can now get passports easily, and tourism in east Asia 
and elsewhere, in Europe, for example, is becoming a big thing.
    So the Chinese now don't simply judge their circumstances 
in terms of their domestic environment; they also are familiar 
with the situation elsewhere. Everywhere that middle class 
Chinese go in east Asia, almost without exception, middle 
classes have the right to vote in democratic elections.
    You have several political systems in greater China. You 
have a democratic system run by Chinese in Taiwan. You have a 
mixed system in Hong Kong and Macau, where half of the 
Legislative Council is freely elected and half represents 
constituencies. You could say it's a more controlled process, 
but in both cases there's more democratic freedom in the way 
that those elections are handled than in the method used in 
China to select their leaders.
    There are additional changes that are taking place in 
China. For example, name another authoritarian system in the 
world in which the leaders change every 10 years, and where 
their successors are always younger than they are. In China, 
the successor has to be under 60, because 70 is the age cutoff. 
This is one of the merits of democratic systems of government, 
in that to change policies you often need to change leaders.
    Well, we have the first generation of leaders in China now, 
and not all the signals are positive, who spent most of their 
adult lives under conditions of reform and openness as opposed 
to under conditions of cultural revolution and the earlier 
Maoist policies.
    Representative Walz. I'm fascinated by this because I see 
this--you mentioned something and you said never in your 
diplomatic career had you seen such a misnomer of the reality. 
I would argue--and this is more due to the fact of lack of 
information--that in the mid-1980s, and many of you would have 
this, the misinformation about us going this way.
    I would say in many cases, especially amongst the youths 
enamored with the West for all of the right reasons but for all 
of the wrong reasons, I see the movement back to a very strong 
sense of nationalism that is coming back. So it used to be when 
you emigrated you were not coming back. Now there is no doubt 
whatsoever there are. How does that play into it, this 
resurgence of--and I know it's always been there. It is much 
more latent. But there is, to me--maybe I am misreading this. I 
see a strong resurgence of Chinese nationalism.
    Ambassador Roy. There is a strong resurgence of Chinese 
nationalism, but one of the really significant changes since 
the period when Ambassador Lord was Ambassador in China, is 
everywhere you go in China now, in the government structures, 
in the universities, and in the business communities, you 
encounter people who were educated in the United States or in 
many cases in other countries. These people come back to China 
because of nationalism and patriotism, but they bring with them 
ideas that were not earlier part of the political dialogue in 
China.
    Now, I have not met a single Chinese who says the American 
political system ought to be taken to China, but what they 
notice is the tools that we have available to deal with our 
inequities are so much stronger because we have a free press 
and an independent judiciary.
    So the pressures in China to try to get a judiciary that is 
not simply under the thumb of the Party are growing stronger, 
and some of that is reflected in the language that I included 
in my opening statement where they're beginning to talk about 
an independent and impartial judicial process. That's not 
accidental when that language gets in there.
    Representative Walz. So you think it starts to move. I 
would ask Ambassador Lord to follow up.
    Ambassador Lord. Let me comment on this.
    Representative Walz. Yes.
    Ambassador Lord. Let me preface this by again reiterating 
my respect for Ambassador Roy. On basic policy toward China, we 
agree what we ought to be doing. I tend to put more emphasis on 
human rights than he does, but on that, reasonable people can 
disagree.
    I agree with some of his hopeful trends, including Chinese 
exposure to foreign influences. By the way, the Chinese 
citizens spend more money abroad than any other country. Their 
students abroad are coming back. All these are hopeful trends.
    But with due respect to my colleague, I look at the current 
scene much differently than he does. I think actions speak 
louder than words. This talk about rule of law and checks and 
balances--it's just not happening. I would refer you to my 
opening statement of what is happening.
    So the Chinese can dress it up with some nice language, and 
occasionally here and there they do make some nominal changes 
in their judicial system. But the fact is, whether it's 
censorship, whether it's locking people up, whether it's 
treatment of minorities, it's getting worse. In some respects 
it's worse than when I was ambassador in the late 1980s.
    So I, frankly, don't put much stock in what's in these 
documents unless the words are carried out. And they're not 
carried out. The rule of law is not there. Freedom of the 
press, checks and balances, none of this is happening in any 
meaningful way.
    Representative Walz. Is this a case of--I often fall into 
this trap--thinking in terms of American time compression, that 
I want to see change by this afternoon, which I know the irony 
of that, being in Congress, is not missing on anyone.
    My point, though, is my Chinese students, high school kids, 
would make the comment that in 75 years or 100 years I fully 
expect these things to happen here. Is it a perception of how 
long this is going to take? Is it happening, but it's happening 
at a pace that is frustrating to us but is Chinese in nature?
    Ambassador Roy. Let me comment on that.
    Representative Walz. Okay.
    Ambassador Roy. You used the term ``time compression.''
    Representative Walz. Yes.
    Ambassador Roy. The term that I use is proving that grass 
doesn't grow. You can easily prove that grass doesn't grow. 
Take a chair, go out into your yard, and sit for several hours 
watching the grass. You have confirmation that grass isn't 
growing. But you wait a week, and you have confirmation that it 
is growing.
    Representative Walz. We do that in Minnesota, by the way.
    Ambassador Roy. In other words----
    Representative Walz. Yes.
    Ambassador Roy [continuing]. Ambassador Lord is asking for 
changes in a time frame that is unrealistic in terms of the way 
other societies have developed. That is why I mentioned that it 
takes 40 years of rapid economic development, not 40 weeks or 
40 months. So it is too early to expect the types of changes 
that Ambassador Lord feels should be taking place in China.
    But what I am trying to emphasize is that changes are 
taking place. They're thinking about the issues differently. 
The word ``democracy'' has become much more important in terms 
of the domestic dialogue in China, and they're actually 
beginning, in Communist Party elections, to have multiple 
candidates for single positions. It's still in a very 
restricted frame, but the possibility of change is there.
    Ambassador Lord. I have to rejoin on that. A lot of things 
can be true at the same time. China is so complex, it's moving 
so quickly, it's so big. I agree with some of these hopeful 
trends but I stand by my position that during the last few 
years China is going backward in key areas.
    I'm not saying this will happen overnight, but I do think 
there are positive steps, as I said, that are in Chinese self-
interest that could develop more quickly, I would hope.
    Some tend to equate democracy with free elections. Now, 
there's a big case to be made that you'd better build up civil 
society before you have those elections. You have seen what's 
been happening around the world. Democracy isn't just 
elections--it's freedom of the press, which can get at 
corruption, which is a key issue for China. It is the role of 
an independent judiciary and fair courts so you're not guilty 
until proven innocent.
    Moreover, civil society and non-governmental organizations 
must be built up, all of which are suffering now. The 
censorship is worse than ever. And by the way, watch Hong Kong. 
They're going to have some problems there.
    So I do agree there are some hopeful trends. I do agree you 
can't expect the lawn to sprout overnight. But I do not agree 
with the assessment of where they are right now. I think they 
are going backward in some areas, as well as going forward in 
others. I think in their own self-interest they can move in 
some of these areas.
    Representative Walz. Thank you.
    Chairman Brown. Thank you, Congressman Walz.
    In the mid-1970s, Zhou Enlai reportedly was asked what he 
thought of the French Revolution, and he said it was too early 
to tell.
    [Laughter].
    Representative Walz. That really happened? All right. Yes.
    Chairman Brown. Congressman Meadows? Actually, you may have 
taken notes but I suggested the line to you.
    [Laughter].
    Ambassador Roy. Mr. Chairman, I hate to correct the record, 
but Zhou Enlai was referring to the student revolution in 
France in 1968.
    Chairman Brown. Oh, he's trying to ruin a good story here.
    [Laughter].
    Ambassador Roy. Sorry. Sorry.
    Chairman Brown. That record is not correct. Sorry.
    Congressman Meadows?
    Representative Meadows. Thank you, Mr. Chairman. And thank 
each of you for your testimony. I must confess, I'm here very 
perplexed to see the different dynamics of two very 
distinguished and very accomplished diplomats disagreeing on 
some of these issues.
    I guess, Ambassador Roy, let me start with you. Are you 
suggesting that, with another 15 years, that this 40-year 
window will magically be met and that we will see human rights 
abuses happen? I don't think you're suggesting that.
    Ambassador Roy. No, I'm not suggesting that at all. But let 
me reverse the question, if you will.
    Representative Meadows. I get to ask the questions, you get 
to give me answers.
    [Laughter].
    Ambassador Roy. Okay. Here's my answer: China is growing at 
a 7-percent-plus rate.
    Representative Meadows. Right.
    Ambassador Roy. The standard of living is rising. Chinese 
are getting a lot of access to the outside world. A change in 
China's leadership will take place in 2022, when a new 
generation of people who were born and grew up under conditions 
of reform and openness and with ready access to the outside 
world will take charge.
    Do you expect that new generation of leaders to have the 
same attitudes as the leaders who grew up under revolution and 
the Maoist policies from 1949 until 1979?
    Representative Meadows. One would hope not.
    Ambassador Roy. I would go beyond that.
    Representative Meadows. Yes.
    Ambassador Roy. I would say it defies imagination to think 
that people with that different perspective on the world will 
address the types of problems generated by change in the way 
that their predecessors would have.
    So if you look at China's leadership changes, the 
generation that was in power when Ambassador Lord was 
ambassador there were Soviet educated during the 1950s. The 
next generation that came in had no opportunity for education 
outside of China because they grew up during the Cultural 
Revolution.
    We now have the first generation that has had the 
opportunity to travel abroad in their formative years, and in 
2022 we will get a new set of leaders whose only experience is 
of a China that has been largely open to the outside world. So 
I'm not saying there's any automatic process in terms of how 
China will change: That you wait 40 years, look at your watch, 
and they suddenly embrace democracy.
    But I am saying that the pressures in China to open up the 
political system and to learn from the best features of the 
societies that Chinese now have ready access to will alter the 
way that China looks at the question of political reform.
    Representative Meadows. Fair enough. But let me ask you 
this.
    Ambassador Lord. Could I comment? I'm sorry to interrupt.
    Representative Meadows. Sure.
    Ambassador Lord. This is a very important topic. To sum up 
our joint positions, I think we both see a lot of hopeful 
trends. We both think this is going to lead someday to a much 
more open China, and we agree it's going to have to come 
primarily from within, from the Chinese people and also out of 
their self-interest, as well as from universal values and the 
impact of other trends.
    Where we disagree, frankly, is the picture of the scene 
today, which I think is very gloomy. I think Xi so far, and the 
leadership, is tightening up. So even if these long-term trends 
work out in a more hopeful way, I just disagree on where we are 
today. I think it is a very grim situation. I indicated in my 
opening statement why I think so.
    Representative Meadows. I have been in hearings, both in 
this commission and on Foreign Affairs where we have seen very 
disturbing trends. In this commission we've talked about the 
freedom of the press and the fact that that is not a common 
occurrence necessarily, regardless of where the trend may lead. 
It's very troubling because that message of freedom does not 
get out if there is not a freedom of the press, or of the 
Internet, or bypassing firewalls, et cetera. So that trend is 
very troubling.
    I have been in Foreign Affairs Committee hearings where 
I've had girls who can't see their fathers that brought tears 
to my eyes when you start to hear the disturbing human rights 
abuses. If the very existence of this commission is one to help 
augment, support, and encourage human rights and those values 
that we all hold dear, how then--and my question to both of you 
is this--do we best incentivize, recognizing that--I think, 
Ambassador Lord, you said my friends in China, recognizing that 
your Chinese friends.
    Ambassador Roy, I think you would say the same thing. How 
do we recognize the sovereignty of a country and recognize the 
relationship thereof, but also support human rights and where 
there is not the violations that we see every day? How do we 
best do that with either incentives or punishment that is out 
there and available to us? Either one of you can comment.
    Ambassador Lord. There are various tools, and I did mention 
some in my opening statement, always recognizing the fact that 
the regime in China puts its own preservation, the political 
party as number one priority. By the way, whenever they talk 
about political reform the most they're talking about is reform 
within the Party, not a multi-party system.
    But I think we can continue through our private efforts and 
our public stances. I think we should pursue exchanges, for 
example, on the rule of law and the environment, some of these 
``safer'' subjects which promote a more pluralistic society. We 
should encourage the most Chinese visitors and young future 
leaders we can get over here. We have to work on all these 
fronts, but recognize ultimately freedom will come from the 
kind of forces that both of us have been pointing to, from the 
Chinese people themselves, and from the Chinese leaders 
eventually realizing it's in their self-interest.
    For example, I don't know how long China can go on 
censoring in the age of information and yet progress with its 
economy. I don't know how long you can have political stability 
if people can't go to the courts or they can't go to the free 
press and they have to go to the streets. I don't know how 
Beijing thinks it's going to get Taiwan to get close to China 
when there are these contrasting political systems.
    So I think there are forces at work, and not just for 
elections, as I said. Someday the Chinese must see that the 
rule of law and a free press and independent courts are needed 
to promote some of their own concrete interests, economic and 
political.
    Representative Meadows. And I am out of time. But with the 
patience and indulgence of the Chair, I'll let you answer, 
Ambassador Roy.
    Ambassador Roy. I will answer briefly. Ambassador Lord 
makes very important points. I hope you do not think that I am 
trying to gild the lily on conditions in China. That is not my 
purpose. But I served three-and-a-half years in the Soviet 
Union at the height of the Cold War, and for three-and-a-half 
years I saw only negative aspects of my country presented to 
the Soviet people.
    It was a totally distorted picture, and yet most of the 
information presented to them was accurate. We do have problems 
in the United States, we do have police brutality affecting 
ethnic minorities, et cetera.
    But this was the only picture presented of the United 
States, and it was a completely unbalanced picture. I think it 
is wrong to only focus on the fact that China's institutions 
and its political system have not yet been modernized. In my 
judgment, modern political systems are all based on the concept 
that power corrupts and it must be checked and balanced.
    So China, in a sense, has a pre-modern political system. 
They're trying to modernize the country. The more they succeed 
in modernizing the country without modernizing the political 
system, the worse the internal contradictions in China are 
going to become because modern societies--look around the 
world--modern societies, by and large, have political systems 
based on the concept of checking and balancing abuses of power 
by governments.
    So I think that's the trend that is going to happen, but it 
takes, unfortunately, in some cases generations to produce 
these changes, or let's say decades. I would share Ambassador 
Lord's desire that it take place tomorrow or the next day, but 
I don't know any societies that develop that way.
    Look at U.S. history. How long did it take us to deal with 
slavery? We couldn't solve it through the political process. We 
had to fight a civil war. Then it took us 100 years to deal 
with the problem of the civil rights of our black minority. So 
in other words, could foreign intervention have caused us to 
shorten that to a decade or two? No. We had to change the 
nature of our society, we had to change our attitudes on these 
questions.
    Look at the issue of votes for women. It took 50 years of 
suffragette struggle before we were even prepared to recognize 
that women had the right to vote. You don't produce those 
changes overnight, and in China the concerns have been 
stability, clothing, housing, a full stomach. They now have 
those things, and it's not enough for middle classes.
    Middle classes are usually property owning. They don't like 
political systems that can arbitrarily dispose of their 
property without having some say in it. So it's not accidental 
that democracies worldwide are based basically on middle 
classes. Those middle classes are emerging faster in China than 
they have anywhere else in the world in a more compressed 
timeframe.
    So I simply say, let's watch the odds. But it is important 
that China stay open to the outside world because these are the 
forces that are causing the middle classes of China to think 
differently about the way that China ought to be ruled.
    Chairman Brown. Thank you, Ambassador Roy, and thank you, 
Ambassador Lord, very much for joining us. We all really 
appreciate your involvement.
    I'd like to call up the second panel. Liane Lee lives in 
Cleveland, Ohio, and was part of a delegation from the Hong 
Kong Federation of Students who twice traveled to Tiananmen 
Square in 1989, providing tents and medical supplies to the 
student movement. She witnessed the military crackdown. She was 
rescued by local citizens leaving Beijing on an evacuation 
flight sent from Hong Kong on June 5, 1989. Ms. Lee, if you 
would join us.
    Dr. Rowena He is a lecturer at Harvard, where she teaches a 
popular seminar on the 1989 Tiananmen movement and its 
aftermath. Her research interests focus on political 
socialization, citizenship education, human rights, and 
democratization in China. She released her book last month 
titled, ``Tiananmen Exiles: Voices in the Struggle for 
Democracy in China.'' Her writings have appeared in the Wall 
Street Journal and the Washington Post. Welcome, Dr. He.
    Professor Jeffery Wasserstrom is the Chancellor's Professor 
of History at the University of California-Irvine, whose 
president is leaving to come to Ohio State University in about 
a month, where he also holds a courtesy appointment in the law 
school and serves as editor of the Journal of Asian Studies. He 
is the author of four books, co-author of six other books. 
Thanks to all three of you for joining us.
    Ms. Lee, if you would begin your five-minute statement. 
Thank you.

 STATEMENT OF LIANE LEE, EYEWITNESS TO JUNE 4TH EVENTS AS PART 
         OF HONG KONG FEDERATION OF STUDENTS DELEGATION

    Ms. Lee. Over the years, as an eyewitness of the June 4 
crackdown, I have been confronted by many Chinese who chose to 
believe the version of history distorted by the Chinese 
Government. They accused me of being a liar. Today, persistent 
for 25 years, I have to tell what I witnessed. I don't have a 
choice, because I was protected to leave the Tiananmen Square.
    It was after 10:30 p.m. on June 3, we three Hong Kong 
students were in the students headquarter close to the 
monument. An urgent broadcast from a student's radio burst in. 
A young boy cried ``It is for real; real killings, fellow 
students! They shot at us! Opened fire at peaceful people with 
machine guns. Held in my hand is the a blood-stained shirt of 
my classmate. What are we going to do now? ''
    Immediately, some students voluntarily formed a group to 
continue to block soldiers. We Hong Kong students decided to 
join them. When we arrived at the National History Museum, a 
league of soldiers, hundreds of them with machine guns, came 
out from the subway. We, about 50 of us, students, workers, and 
citizens formed a human wall to confront them calmly and 
peacefully.
    When time came to midnight, that's in the early morning of 
June 4, horrible military signals fired up across the sky. 
Within minutes, we heard shootings from far away. Some young 
workers started to pick up sticks and rocks to protect 
students. But students told them to put down their weapons. One 
of them said ``Peaceful protest. No weapons allowed or you 
knock me down first.'' An old worker came up with heavy tears 
and talked to young workers, ``Listen to the students. We have 
to be peaceful.''
    After another round of shooting, badly injured people were 
carried from behind the building to a first aid station nearby. 
One of them, a college student, the back of his neck was shot. 
His body was paralyzed. But he was still shouting, ``Don't give 
up, don't give up.'' Since the troops in front of us hadn't 
taking any action yet, I got some courage and crossed the 
warning line to talk to a high ranking officer. I said to him 
``I am a Hong Kong student. We are just doing petition here 
peacefully. Please do not hurt the students, they are all your 
children, the future of China.'' The officer looked at me 
coldly like a piece of stone, but tears were welling in his 
eyes. I broke down and knelt before him to cry. Then, fellow 
Hong Kong students dragged me back to where we were.
    It's about one hour past midnight, intensive gun shootings 
were approaching, we could hear people screaming somewhere. A 
group of people carried more bloodied bodies to the first aid 
station. Along with them was a little boy, holding a rock in 
his hand, hysterically running toward the soldiers in front of 
us. I held him back with all my strength in my arm. He cried 
``They killed my brother. I'm going to fight until I die.'' I 
wouldn't let go, then he lay his head on my shoulder and cried 
like an old man in despair! Then, an loud siren ambulance was 
leaving. The boy got loose of my arms, chasing after the 
ambulance and crying ``brother, my brother'' and then 
disappeared at the end of the street. Later, I was told, this 
boy's body, covered with blood, was carried back to the first 
aid station.
    I felt so sick! I didn't think I was able to sustain myself 
any more. So people took me to the first aid station. When I 
recovered, an ambulance arrived. People shouted, ``Hong Kong 
students get in the ambulance first.'' Of course I refused. ``I 
am fine. Please help the injured first,'' I said. Not long 
after, another ambulance arrived. Again, people, many of them, 
shouted ``Hong Kong students get in the ambulance first.'' I 
strongly refused. Then, a female doctor held my hand, looked 
into my eyes, and said to me ``My child, please get in the 
ambulance, you must leave the Square safely. You must go back 
to Hong Kong. We need you to tell the world what happened here. 
What our government did to us tonight! ''
    Today, I am here to tell the world, not mainly about the 
brutal military crackdown, rather, I want you all to remember 
the people. They are good people. They believe in the power of 
peace, they believe in hope, they believe in the virtue of 
human nature, and they even believed in their government.
    For those good people I met in the Square, I do really want 
to know their name. But I can only remember their noble faces. 
Do they have a name? In China, their only name is given by the 
Chinese Government! They call them mobs, in the name of China!
    Chairman Brown. Thank you, Ms. Lee, very much.
    Dr. He?

      STATEMENT OF ROWENA HE, LECTURER, HARVARD UNIVERSITY

    Ms. He. Thanks so much, Liane, for the moving testimony. 
``To tell the world what our government did to us'' that night 
has been a cross that many of us have been carrying ever since 
that night when we were violently silenced. I told Liane's 
story every time I took my students to the Tiananmen Archive at 
the Harvard Yenching Library. The Archive contains 28 boxes of 
artifacts from the 1989 Tiananmen movement, including a pair of 
pants stained with blood.
    The pants were kept in an old dusty plastic bag. All of 
those boxes have been collecting dust for the past quarter 
century. They should be kept in a national museum in China, 
like the one where Liane was on June 3, 1989, but instead they 
are kept in a basement. The pants came with a note, a 
handwritten note, explaining that the blood was from a graduate 
student of Beijing University who was shot at Muxidi.
    My students often asked if the wounded student survived. I 
don't know. I only know that the person who smuggled the pants 
out ran a great risk hoping that sometime, somewhere, someone 
would take this seriously and to get to know the stories behind 
the pants so that Chinese people's blood would not be shed in 
vain.
    On the surface, Tiananmen seems to be remote and irrelevant 
to the reality of the ``rising China,'' but every year on its 
anniversary, the government clamps down with intense security 
and meticulous surveillance. The recent detention of scholars 
and rights defenders is just another reminder that Tiananmen 
did not end in 1989.
    A quarter century later, the Tiananmen Mothers are still 
prohibited from openly mourning their family members, exiles 
are still turned away when they try to return home to visit a 
sick parent or to attend a loved one's funeral, and scholars 
working on the topic are regularly denied visas. Even today the 
number of deaths and injuries on that fateful night remains 
unknown. But we now know that at least 200,000 soldiers 
participated in the lethal action. While memory can be 
manipulated and voices can be silenced by those in power, 
repression of memory and history is accompanied by political, 
social, and psychological distortions. Indeed, it is not 
possible to understand today's China and its relationship with 
the world without understanding the spring of 1989.
    In 2011, China's state-sponsored English newspaper China 
Daily published a story headlined ``Tiananmen Massacre a 
Myth.'' Citing the release of WikiLeaks diplomatic cables 
indicating that there was no bloodshed in the square itself, 
the article claimed that ``Tiananmen remains the classic 
example of the shallowness and bias in most Western media 
reporting, and of governmental black information operations 
seeking to control those media. China is too important to be a 
victim of this nonsense.''
    While there is nothing extraordinary here--this has been 
the official version from the start. The state-sponsored myth 
is poignantly challenged by the victim list collected by 
Professor Ding Zilin, representative of the Tiananmen Mothers, 
who lost her teenaged son during the massacre. Despite 
escalating government repression, Ding has been carrying out a 
one-woman campaign to collect information about the victims.
    Ding's list clearly documented the deaths of students 
killed in Tiananmen Square, among them, Cheng Renxing, a 
graduate of the People's University of China. Cheng, age 25, 
was shot and killed by the flag pole in Tiananmen Square while 
withdrawing with other students in the morning of June 4. 
Cheng's father, a farmer from Hubei province, was devastated 
and died in 1995. Cheng's mother tried to hang herself at home 
but was saved by her 10-year-old grandson, who used his little 
body to hold up his grandmother for an hour until the adults 
came for rescue.
    But whether people were killed in the square itself is not, 
in any case, the central question. Maps created based on 
information provided by the Tiananmen Mothers, that pinpoint 
the locations of documented killings and of hospitals where 
victims died, show that state violence was widespread across 
central Beijing.
    Through Ding's list, we got to know victims such as Xiao 
Bo, a Beijing University lecturer, who was killed on his 27th 
birthday, leaving behind twin sons who were born just 70 days 
before he died.
    The victims' list is not arranged alphabetically but by the 
date when information about a victim came to light. For 
example, according to Ding's account, the authorities told 
Xiao's wife to remain silent about her husband's death--
otherwise they would not allow her to stay in their campus 
housing. This young mother felt that she could not afford to be 
homeless with her babies, so she was invisible until Ding 
eventually reached her in 1993 and added her husband as number 
008 on the list.
    Ding's work has truly been a mission impossible, with no 
end in sight--the total of 16 names that she had collected by 
1993 had grown to 202 by 2013, and it is still far from 
complete. The true number is buried under years of coverup, 
deception, suppression, and repression.
    The fear created by the massacre is illustrated by a story 
told by Professor Cui Weiping, Chinese translator of Vaclav 
Havel's work. After the elder son of one family was killed, his 
sister had two boyfriends, each of whom broke up with her after 
learning about her brother. The sister and the mother decided 
that she would not mention her brother again to whomever she 
planned to date. Now she is married with a daughter, and her 
husband still has no idea about the death or even the existence 
of his brother-in-law.
    In 2013, a few days before the Tiananmen anniversary, a 
Tiananmen father, Ya Weilin, hanged himself in an empty parking 
lot in Beijing. I had watched him in the video, he looked sad 
but determined. Did he give up hope, or did he think he had 
nothing but his own life to remind us about the massacre? We 
don't know. But we know that this is not just about then, but 
also about now; not just about them, but about us. If we can 
watch such a tragic event with folded arms, it reflects who we 
are as human beings and world citizens.
    When the world's criteria for a great country are 
downgraded to one exclusively about GDP [gross domestic 
product], when world citizens bow to a regime that enforces 
false values because of its wealth, we have abandoned our 
values and downgraded our own institutions--we also become 
victims of the Tiananmen crackdown.
    Tiananmen can remind us of repression, but it also 
symbolizes people's power and human spirit. As the desire for 
freedom is deeply human and human beings' longing for basic 
rights is universal, history will witness the Tiananmen spirit, 
as the power of the powerless, again and again. History is on 
our side. China has to face its past in order to have a future. 
Thank you.
    Chairman Brown. Thank you, Dr. He, very much.
    Professor Wasserstrom?

  STATEMENT OF JEFFERY WASSERSTROM, UNIVERSITY OF CALIFORNIA-
                             IRVINE

    Mr. Wasserstrom. I want to thank the Cochairs and members 
of the commission for inviting me to speak, and I hope that I 
can show that it is valuable to have a historian's view here 
along with those of other kinds of experts and these powerful 
eyewitness accounts.
    In a 1990 interview with Barbara Walters, Communist Party 
Leader Jiang Zemin made a startling comment. Asking about the 
previous year's protests and the Beijing massacre that cost so 
many people their lives, he said the best term for all of this 
was ``much ado about nothing.''
    In this sweeping rhetorical gesture he dismissed as 
unimportant the massive rallies for change that had swept 
through Chinese cities, scores of them, and the suffering of 
the workers, students, and others who were shot in Beijing and 
also in Chengdu, where a second massacre occurred that is 
discussed well in Louisa Lim's important new book, ``The 
People's Republic of Amnesia.''
    Jiang's comment implied that it was also unimportant that 
after the massacres the government jailed activists and 
launched an 
intensive propaganda campaign to convince a justly skeptical 
population that a home-grown, non-violent popular movement had 
actually been a ``counter-revolutionary riot spearheaded by 
troublemakers backed by foreign powers.''
    Jiang's ``much ado about nothing'' comment is deeply 
objectionable. It belittles the bravery of those who demanded 
an end to corruption and an increase in personal and political 
freedoms. It belittles their patriotism as well. This is a 
crucial point, as a key theme of the protests was that a 
beloved country deserved to be governed by better people.
    Jiang's comment also misleadingly implied that China's 
leaders were not worried by the protests. They were. This had a 
lot to do with history. Via their slogans and writings, 1989's 
students put forward a view of the past and its ties to the 
present that differed radically from the stories Deng Xiaoping 
and his allies told to legitimate their rule. Workers and 
others joined students on the streets in massive numbers, in 
part because they found this alternative view of history 
compelling.
    The Party prided itself, for example, on claiming that 
corruption was a thing of the pre-1949 past of Chiang Kai-shek, 
but 1989's protesters countered that corruption and nepotism 
continued to plague China, as many protesters continue to claim 
now.
    The Party bragged that it embodied the patriotic values of 
1919's May 4th Movement, a student-led heroic struggle 
celebrated in Chinese schoolbooks much as the Boston Tea Party 
is in ours, though there, as here, people fight over who can 
claim the mantle of that heroic event.
    1989's protesters countered that they, not the government, 
had the best right to speak in the name of that hallowed 
historic spirit. Whereas Deng and company argued that those 
taking to the streets were like the Red Guards and threatened 
to send China hurtling back to the chaos of Mao's final years 
that no one wanted to return to, the protesters pointed to 
things Deng was doing that brought to mind Mao's dangerous 
late-in-life actions.
    It is also clear that China's current leaders do not really 
think 1989 was ``much ado about nothing.'' The Party has long 
since abandoned its strategy of talking a lot about 1989 and 
trying to distort its meaning, but it still devotes great 
energy to imposing on the populace what Lim and others aptly 
call a state of amnesia about the year.
    Many recent official actions can be best understood as 
motivated in part by a desire to minimize the chances of facing 
another 1989. For example, without acknowledging doing this, of 
course, China's leaders have given today's students certain 
things that 1989's predecessors of these students clamored for, 
such as more freedom in private life, choosing who they can 
date, what kind of music they can listen to, and many other 
things that we take for granted. These are not enough. There 
are many things that 1989's students wanted that they have not 
gotten on the political front, but it is important to remember 
small victories even amidst defeat.
    The government has also done many things since 1989 
relating to protests that are colored by a desire to not have 
to deal with 1989 again. The government now deals harshly with 
outbursts that show: (A) any degree of organization; (B) link 
up people of different social groups; and (C) connect people in 
different locales. These were all key features of the 1989 
struggle, as well as of Poland's contemporaneous Solidarity 
struggle.
    When protests with none of these characteristics occur, the 
government now is sometimes willing to compromise with 
protesters or take moderate steps to end protests. But when 
one, two, or especially all three of the factors just mentioned 
come into play, the response is swift and can be brutal.
    I am happy to answer questions not just about what I've had 
time to say, but also about how the grievances behind, and 
methods of, today's protests have changed since 1989 and I am 
happy also to reflect on some of the issues you've raised with 
the two ambassadors.
    All I hope to have shown in this brief statement is that 
far from being ``much ado about nothing,'' 1989's events were 
something much more, and that we can't fully appreciate 1989's 
significance or China's complex current situation without 
paying attention to that history.
    Thank you.
    Chairman Brown. Thank you, Professor Wasserstrom.
    Ms. Lee, thank you for your moving testimony and your 
courage and your being an eyewitness to history. How have 
witnesses and participants kept alive the memory of the 1989 
demonstrations? How have you done that, and others whom I'm 
sure you're in touch with in some cases? What does Tiananmen 
mean to them 25 years later?
    Ms. Lee. It's hard; really, really hard. I do really want 
to forget it, but they pushed me into the ambulance and they 
told me, you know, to tell the world. So every year in Toronto, 
in Hong Kong, everywhere, whenever I was interviewed by 
reporters and do the testimony at every event, and I would 
force myself to tell what I saw and what I experienced.
    Every time I have to dig into the details, remembering it 
and imprinted in my mind. Twenty years later, maybe, I do 
really believe that--maybe it's already been long enough for me 
to be detached from the painful memory--but every time it is 
pretty emotional because I couldn't really forget, you know, 
the people there. It's not just a political crackdown, it's the 
contrast. There's a big contrast between people and the 
government. People, they are so peaceful, they are so noble, 
and they do believe in the power of peace.
    The government, you know, who used heavy weapons to kill 
their people--to kill--you know, there were grandpas, grandmas, 
fathers, mothers, sisters, brothers, and kids. Just me--you 
know, from what I saw that night, I mentioned several kids. 
Yes. Thank you.
    Chairman Brown. Thank you. There are few people who many of 
us meet who have seen and survived such a brutal event, so your 
talking about it is helpful to us and I think to so many with 
whom you come into contact. Thank you.
    Dr. He and Professor Wasserstrom, this commission sort of 
struggles with what we talk about, the light we try to shine on 
human rights abuses. We sometimes think, does it undercut the 
safety of people whom we talk about sometimes? Does it help the 
situation? Does it shine lights on other parts of Chinese 
society? Is it a bunch of Americans preaching to another 
country and to the people of that other country what they 
should do differently? It's perhaps all those things.
    Both of you, if you would--I would start with you, Dr. He. 
Give us your view in the historical context, what is the most 
important way that we should be talking about human rights and 
encouraging people with the courage of Ms. Lee to stand up and 
combat some of these issues of human rights abuse?
    Ms. He. I think very often when we talk about Tiananmen, 
people think that's something political, but Tiananmen is not 
just about politics. It is also about human beings. The 
personal is connected with the political, the social, and the 
historical. Let's not talk about abstract ideas--about whether 
China should have human rights, whether we want democracy. Just 
ask some simple questions: Should the Tiananmen Mothers have 
justice for their family members?
    The fact that Liane and I are speaking our second language 
in this foreign land, telling the world what happened in our 
country while those voices about this central event in 
contemporary Chinese history are not allowed--it is strictly 
taboo in China, is already telling.
    What are the implications for China and the world when 
history and memory are forbidden, erased, and twisted; when 
people who speak truth to power are exiled from their home, 
from their land, from their people?
    To get back to your question about how that affected the 
Chinese society, the moment the government ordered its army to 
fire on its people in the name of national pride and economic 
development, it sent the message that any principle can be 
compromised to ``become rich'' and to accomplish ``the rise of 
China.'' Such mentality has become the root of major social and 
political problems in post-Tiananmen China.
    Deng Xiaoping's clear signals to the Chinese people in the 
1990s--make money any way you like but forget about all 
unapproved politics, religion, and related matters--grew out of 
the crisis of 1989. Deng's policies over the years have led to 
a booming economy, higher average living standards, and a more 
prominent place for China in the world, but have also 
engendered enormous wealth inequality, massive corruption, 
growing environmental problems, profound popular cynicism, an 
erosion of public trust, massive expenditures on ``stability 
maintenance,'' and new signs of belligerence on the 
international stage.
    Chairman Brown. Thank you.
    Dr. Wasserstrom?
    Mr. Wasserstrom. I think the more that we can frame the 
desire for things that we want to have happen in China around 
the ideals that the Chinese revolution was about and that the 
Chinese Communist Party itself claims is central, the more 
effective it's going to be. To say what we're calling on the 
government to do, which is actually what the students in 1989 
did, is to live up to their own professed ideals.
    The more we can present it that way, the better--and China 
now has a long tradition, a 100-year-long tradition, of 
debating the place of what we think of as liberal rights within 
China. It is not a new thing to call for a free press as a way 
to modernize a country, it is not just something that comes 
from outside. There are Chinese thinkers from 100 years ago who 
are some of the ones, the founders, the Communist Party admired 
who can be quoted. This is one of the ways that I think history 
matters.
    I think in other ways it is also important to be candid in 
the way that Ambassador Roy was, to acknowledge the difficulty 
of reaching some of these goals--the things we now take for 
granted were achieved through struggle and effort within the 
United States. They weren't things that were instantly arrived 
at. That's not a reason to think that it will necessarily take 
a very long time to achieve them in China, but rather to 
suggest there's a value in talking about how these things can 
be hard to achieve, but that countries can get there.
    The Chinese Government now wants to be seen as a full 
player in the international arena, and you can see some ways in 
which it is modifying its system of rule to fit in there, but 
other ways that it's not, and I think there is value in calling 
on it to do more in that direction as well.
    But also I think one point that Ambassador Lord made is 
crucial. There are changes over time, moves in positive and 
moves in negative directions. It seems too often that our 
position seems to be that as long as China is ruled by a 
Communist Party it will be flawed in exactly the same way, when 
in fact it does change over time.
    We need to be able to have a way of talking about human 
rights that acknowledges shifts, so that when there is a 
repressive turn, as I agree there has been recently, we can put 
special pressure at that moment that doesn't just seem to be a 
continual hectoring about things in a steady fashion. So we 
need to have a sense of change over time.
    I think things were moving in a slow, yet often positive, 
direction, a two steps forward/one step back one, until about 
2008. Since then, for various reasons, we keep waiting for 
periods of tightening to be followed by periods of loosening. 
It seems to be that there is this kind of consistent 
tightening. We need to have a way of talking about that.
    I think the main basis for hopefulness is that there are 
some ways in which potential for change can come in--some of 
the things that the Chinese Government has done since 1989 to 
sort of reposition itself in a position to stay in power has 
been to say, just leave us in charge and life will get better 
and better in ways other than the political.
    When it comes to daily life matters, for a time at least it 
seemed that things were getting better, and many people felt 
they had more opportunities than their parents had. Many people 
in the late 1990s and early 2000s would have probably said in 
China, if you asked them ``Do you think your life is better 
than that of your parents' and do you think your children's 
lives will be better than yours,'' many people would have said, 
whatever they felt about political freedoms, that that was 
probably a fair assessment of things.
    I think that kind of bargain is fraying, in part because of 
the increased worries over daily life concerns, food scares, 
pollution, and things like that. So I think if change is going 
to come from within, one possible way in which change can be--
and to some extent has been--restarted, has been a shift from 
protesters saying, without changes we will not become a modern 
country to saying we've now become a country that in many ways 
is modern; without change though, modernity won't continue to 
improve life but in fact is starting to damage some things. 
It's not clear that our children will live a better life in 
this country we love than we did.
    Chairman Brown. Thank you. Thank you. Dr. Wasserstrom.
    Congressman Walz?
    Representative Walz. Thank you, Chairman. Thank you all for 
your testimony. I think we're getting at the heart of this 
because this historical event, and obviously for Ms. Lee the 
personal nature of it, and the Professor, but in the broader 
context of what it means for us, what it means going forward. I 
think there's been some very great points brought up.
    My concern has always been that there are certain seminal 
events that, if they are not addressed, will continue to fester 
and will not allow some of that to happen. My belief was this 
was one of those. I say that being very cautious of being in 
the vicinity of it and of an age to kind of second-hand be 
there, putting an over-emphasis on it because it was partially 
me viewing it.
    I'm very careful about that, but I think here watching this 
I can hear it, I can still feel it. The thing that troubled me 
most was how quickly--and I understand this from the history 
perspective--of the fear of the Cultural Revolution and again 
the disruptive nature of that.
    People were so--I heard from people that shocked me in the 
summer of 1989 that the students, while it was horrible, what 
happened, and they were not denying it happened, they were 
asking too much and brought some of it on themselves. For me, 
it was most troubling on that because I watched this and saw 
that this was a critical moment. It was pivotal in human 
rights.
    So my question is, this is not going to be commemorated at 
the magnitude it probably should. I would ask the question, 
what's going to happen up here in Washington other than in this 
room on the 25th anniversary? Do either of you know? Do you 
know what's going to happen, or how is this going to be viewed? 
Because my belief is--and Professor, you may be able to speak 
to this, as well as Ms. Lee. Again, do Americans know the 
story? Do Americans know what happened on June 3 and June 4, 
1989, in your opinion?
    Ms. Lee. So have you seen the candlelight vigils every year 
in Hong Kong at Victoria Park?
    Representative Walz. Yes.
    Ms. Lee. What do you think?
    Representative Walz. Well, for me personally, I see it. But 
I have to tell you, I taught American high school and college 
students. They don't know this story. They don't know what's 
happening, they don't know what's there. So my question is, if 
this is a historical event, not to be remembered in the context 
of it, we don't remember major historical events just for the 
sake of remembering them.
    The purpose of focusing on high school education, say on 
the Holocaust, is to ensure that it doesn't happen again by 
predicating what led up to it. So this issue, while talking 
about the deaths or whatever, has never been discussed in this 
broader nature. So my question is, is it our responsibility to 
do more on that? Because I do not deny, and in Hong Kong--but 
those protests or those commemorations aren't going to be 
widely seen here, and they're certainly not going to be widely 
seen, at least openly, in China. People know they're going on.
    So my question to you is, what do we need to do? Because it 
is about the personal, it is about remembering those names, it 
is about remembering the people you saw, it is about 
remembering the grandmother. It is important. But in a broader 
scale, if we don't get this out there, I don't think we'll ever 
heal from it. I don't think it ever goes forward.
    Ms. He. Yes, of course. The Chinese society has been 
carrying such an open unhealed wound for the past 25 years. 
Citizens understand their responsibilities for a country's 
future by debating the moral meaning of history. Because public 
opinion pertaining to nationalism and democratization is 
inseparable from a collective memory of the nation's most 
immediate past, Tiananmen as a forbidden memory has profound 
impact on the Chinese society today.
    Representative Walz. Right.
    Ms. He. One thing the regime learned is that they need to 
make sure the younger generation does not repeat what the 
students did in 1989. I often use the metaphor of locking the 
doors and locking the mind. In 1989, the government locked all 
the doors of major campuses to prevent students from taking to 
the streets. But now, even though the doors are wide open, 
students do not take to the streets to push for political 
reform.
    Representative Walz. What about 30-year-old and younger 
Chinese?
    Ms. He. You mean----
    Representative Walz. Today. A 30-year-old living in----
    Ms. He. The immediate effect of the military crackdown was 
profound cynicism in Chinese society, compounded with 
nationalism and materialism. These ``isms'' are consequences of 
the 1989 crackdown. People would say even if you do something 
you are not going to change anything. Why bother?
    Also, immediately after the military crackdown, after the 
mass arrests and purges, the government launched an elaborate 
campaign to re-establish its legitimacy. A patriotic education 
campaign was initiated.
    Another thing is, in the post-1989 period, they implemented 
this--education campaign. Textbooks for history and politics 
were significantly revised to underscore the patriotic themes 
and put great emphasis on China's historical victimhood at the 
hands of the West and Japan. But major atrocities caused by the 
Communist Party were not mentioned. Nationalism became 
increasingly evident in popular discourse.
    Democratic mechanism can happen overnight, but it takes a 
generation to change people's minds. Without essential elements 
such as free speech, a free press, and free access to 
information, all of which students demanded in 1989, the 
development of the forces of a nascent civil society in China 
will continue to face many obstacles.
    Representative Walz. None of those things can happen if we 
don't talk about them.
    Ms. He. There can be citizenship without democracy, but 
there cannot be democracy without citizenship participation. 
But the regime has been punishing those who are politically 
active.
    Mr. Wasserstrom. When you asked if Americans know about it, 
I think one problem is that sometimes we remember it in a very 
reduced form that strips it of some of its power and its 
meaning. What is remembered is students in Beijing. There were 
protests in scores of Chinese cities, very large crowds.
    By the end of the movement there were many people other 
than students who had followed the students onto the streets. I 
think we forget that there were killings in places other than 
Beijing. That's why I brought up the Chengdu massacre.
    Also, I think we forget the themes that were involved in 
this, including an effort to express patriotism. Now, when we 
think of a complete difference, there's been a warping of 
nationalism. It isn't that there wasn't patriotism in 1989.
    I think the government, even though it uses nationalistic 
protests, it tries to get people off the streets quite quickly 
because it knows that it's a short step from saying look at how 
other countries are behaving to let's talk about how our 
country that we love could be better governed. So there are a 
lot of things about it that there could be a richer 
understanding.
    Representative Walz. And patriotism and nationalism were 
not synonymous.
    Mr. Wasserstrom. Not synonymous, but they're connected.
    Representative Walz. Yes. Fair enough.
    Mr. Wasserstrom. And there are efforts to try to draw 
attention to the events of 1989 beyond this room, including 
something called the Tiananmen Initiative that some scholars 
have started, one of whom, Steve Levine, was here earlier and 
may still be here, that's available online and that is starting 
open letters and also just keeping track of events being held 
at campuses around the country to try to get to this.
    Representative Walz. Good.
    Mr. Wasserstrom. But this is a prime example of how we can 
use things that the Chinese Government talks about and cares 
about significantly itself. There's been a lot of attention 
lately, including just now, to call on Japan to come to terms 
with historical mistakes. I think to talk about this, let's 
come to terms with historical mistakes. Let's have more 
discussion in that same spirit, such as the Great Leap and 
things such as these.
    Chairman Brown. Thank you. Thank you, Professor. Thank you, 
Mr. Walz.
    Mr. Meadows?
    Representative Meadows. I just want to thank each of you 
for your testimony. Ms. Lee, thank you for your moving 
testimony. Truly, voices like yours will not be drowned out, 
not in 25 years, not in 50 years, if we continue to make sure 
that the truth is known.
    Thank you for putting this in context from a historical 
perspective. I think it is critical for all of us to understand 
that if we pay attention to the true story of what happened, 
the magnitude as you were saying just a few minutes ago of what 
happened, that hopefully we will be a free society that will 
not repeat those things and that we will welcome our Chinese 
brothers and sisters in a spirit of friendship, and really, 
freedom.
    To that end, I am committed to continuing to work for 
Internet freedom, for the ability to make sure that when 
firewalls are circumvented, that they stay circumvented where 
we can truly have the Chinese people speaking for the Chinese 
people and that that is not thwarted. I thank each of you. 
There's really no questions.
    Mr. Chairman, I will yield back to you. I thank you for 
holding this hearing.
    Chairman Brown. Thank you, Congressman Meadows.
    Thanks to all three of you for your passion and your 
commitment to justice and your work on human rights, 
particularly those of you that suffered doing it and all about 
your country.
    So thanks to all three of you. Anyone on the commission may 
have written questions, if you would get the answers back to us 
as quickly as possible. Certainly Congressman Meadows and 
Congressman Walz and others can submit anything they want for 
the record, too.
    The Commission is adjourned. Thank you very much.
    [Whereupon, at 5:20 p.m. the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


             Prepared Statement of Ambassador Winston Lord

                              may 20, 2014
    Co-Chairmen, Members of the Commission:
    I am honored to appear once again before this Committee. I am 
inspired by your renewed commemoration of events that will be enshrined 
in history. In the words of Lu Xun, ``Lies written in ink cannot 
disguise facts written in blood.''
    We gather at a melancholy time. The Chinese authorities continue to 
distort and erase the Spring of 1989. They continue to withhold answers 
from the mothers of the fallen. And they seem more determined than ever 
to squash basic freedoms.
    In five minutes I can only employ brush strokes to evoke the China 
scene and the implications for American policy. Please bear in mind, as 
I speak with the candor I use with my Chinese friends, that I have 
worked to promote relations with China ever since the Kissinger secret 
trip of 1971. I will continue to do so.
    My three principal conclusions up front:

        <bullet> The political system in China is unjust and inhumane. 
        It is getting worse.
        <bullet> American efforts to promote freedom have yielded 
        slight results but should endure.
        <bullet> The near term prospects are bleak, but in the longer 
        run change from within will open China.

    Certainly the landscape has radically changed since the disastrous 
50s and 60s when even the freedom of silence was not allowed. And in 
certain important areas China continues to improve. Chinese can compete 
for college, choose their work, change their residence and travel. They 
can grouse loudly among friends, selectively in social media. Awesome 
economic progress has lifted the horizons of hundreds of millions.
    But in certain key domains the screws have tightened, especially in 
recent years. The weekly salons for officials, academics, artists and 
dissidents that my wife and I hosted in the late 80's at our official 
residence can no longer take place. The Party persecutes not only a 
blind activist but also his relatives. It locks up not only a Nobel 
Prize winner but his ill wife. It rounds up not only reformers but 
those who defend them. It not only jails the troublesome but forces 
them to confess on television. It not only mistreats Tibetans but 
punishes governments that host the Dalai Lama. It not only smothers the 
domestic internet and media but threatens foreign journalists and spurs 
self-censorship from Bloomberg to Hollywood.
    U.S. Administrations of both parties have tried through a variety 
of means to encourage greater freedom--from selective sanctions to 
trade conditions to private dialogues and public shaming. All to scant 
avail.
    Other players undercut our official efforts. Few governments will 
even raise the subject of human rights. In America, contract-hungry 
business bosses, visa-anxious scholars, and access-seeking former 
government officials ignore, tiptoe around, even rationalize Chinese 
suppression.
    Should we therefore bury this issue? No.
    Certainly it cannot dominate our agenda, which features critical 
security, economic and political stakes. We derive enormous benefits 
from our economic relations and our bilateral exchanges. On many global 
problems we share common concerns and the Chinese can be helpful: The 
curses of terrorism and nuclear weapons. Shipping lanes and piracy. 
Climate change and clean energy. Health and food safety, drugs and 
crime.
    On regional issues the Chinese posture varies--helpful on 
Afghanistan and Sudan, unhelpful on Syria, mixed on Iran and North 
Korea. And Beijing has become downright provocative and dangerous with 
its probes in the East China Sea, its bullying in the South China Sea, 
and its unilateral declaration of an Air Defense Identification Zone. 
Indeed in its maritime encroachments it evokes Moscow's policy towards 
its neighbors. I can list about ten similarities.
    Despite this daunting agenda, we should continue to advocate human 
dignity in China. This reflects our values and international norms. It 
maintains public and Congressional support for our overall policy. It 
heartens Chinese reformers. And it serves concrete national interests: 
free societies do not go to war against each other, harbor terrorists, 
hide natural and man-made disasters, or spawn refugees.
    We should proceed without arrogance. Above all, we should progress 
at home. Gridlock and polarization in this city sabotages our 
championing of democratic values abroad.
    Many avenues exist to nourish liberty. Private dialogue. Public 
stances. Exchanges between non-governmental organizations on topics 
like civil society, rule of law and the environment. Expand Voice of 
America and Radio Free Asia. Increase funding for new technology to 
breach the Chinese Firewall. Pursue the UN Commission's indictment of 
China's abetting North Korean crimes against humanity. Retaliate 
against the harassment of foreign journalists. Support free elections 
in Hong Kong.
    We should thus persist across a broad front. But change in China 
will not result from outside encouragement or pressures. It must come 
from the Chinese themselves. We must appeal to China's interests. The 
rule of law, freedom of the press, an independent judiciary, a 
flourishing civil society and accountable officials would promote all 
of China's primary goals--economic progress, political stability, 
reconciliation with Taiwan, good relations with America, international 
stature and influence.
    Members of the Commission, given the dark clouds, it is tempting to 
be pessimistic about the future of freedom for one-fifth of humanity. I 
do believe, however, that a more open society will emerge, impelled by 
universal aspirations, self-interest, a rising middle class, the return 
of students and the explosive impact of social media. No one can 
predict the pace or the contours of the process. We might as well 
consult fortune cookies.
    Nevertheless, one day mothers will have answers, Chinese history 
books will record heroes not hooligans, and the promise of the Chinese 
Spring will finally shape the destinies of a great people and a great 
nation.
    Thank You.
                                 ______
                                 

               Prepared Statement of Jeffrey Wasserstrom

                              may 20, 2014

                        History and China's 1989

    In May of 1990, less than a year after television audiences around 
the world had been stunned by images of the People's Liberation Army 
using brutal force to quell popular protests in China, Barbara Walters 
interviewed Communist Party leader Jiang Zemin for the ``20/20'' news 
program. When she asked him to comment on the chain of events of the 
previous year, including a massacre in the nation's capital that left 
at least several hundred workers, students and members of other social 
groups dead, Jiang made a stunning statement. He said that ``much ado 
about nothing'' was the best description for all that had happened. In 
this sweeping rhetorical gesture, he dismissed as unimportant the 
Beijing killings--killing that are known in Chinese as the ``June 4th 
Massacre,'' since it was early on the morning of that day that the 
largest number of unarmed civilians were shot by soldiers.
    Jiang's ``much ado about nothing'' statement also suggested that 
many other things that happened in 1989 were insignificant. The massive 
rallies calling for change, for example, that had been held in cities 
across China in April and May, and a second massacre that had occurred 
in Chengdu after the Beijing killings--one of many events germane to 
these hearings that is handled well in NPR correspondent Louisa Lim's 
powerful new book, The People's Republic of Amnesia: Tiananmen 
Revisited. His comment also implied that he thought it unimportant 
that, after the massacres, the government had arrested and sentenced, 
in some cases to very long prison terms, many activists accused of 
fomenting ``turmoil''--a highly charged negative code word for the 
chaos that had beset the country during the Cultural Revolution decade 
of 1966 through 1976--and laying the groundwork for what an official 
propaganda campaign dubbed a ``counter-revolutionary rebellion'' that 
had endangered the nation. His words suggested as well that it was a 
small matter that, just before the massacres, the government had 
imposed on the nation's capital a state of martial law similar to that 
it had imposed on Tibet earlier in 1989 after protests there. And that 
it was minor thing that Zhao Ziyang--who had been elevated to the 
status of Deng Xiaoping's presumed heir apparent when Hu Yaobang was 
removed from that position in 1987, due largely to his having taken a 
lenient line on an earlier wave of student protests that began late in 
1986 and served as a dress rehearsal of sorts for the popular struggle 
of 1989--had been purged and placed under house arrest.
    Jiang's phrasing was deeply objectionable on many levels. It 
belittled the bravery of all those who gathered at Tiananmen Square and 
urban plazas across China in 1989 to call for an end to corruption and 
increased personal and political freedoms. It also belittled their 
patriotism--a crucial point as key themes of the protests were that a 
beloved country deserved to be run by better people and that the 
Communist Party should do more to live up to its own professed ideals. 
And his statement belittled the suffering of the many protesters and 
bystanders slain in Beijing and Chengdu--and that of the family members 
of these victims.
    As someone who writes and teaches about China's past for a living, 
I also see Jiang's comment on the events of the spring of 1989, which 
are known collectively in Chinese as the ``June 4th Movement,'' as 
problematic in additional ways that have to do with history. Calling 
the demonstrations and massacres of 1989 ``much ado about nothing'' 
distorts their important place in the history of Chinese protest and 
repression and keeps us from appreciating the way that struggles of the 
past can affect new efforts to transform a society. Using this 
terminology also implies, in a seriously misleading way, that China's 
leaders were not concerned at the time by the challenge that protesters 
posed to their legitimacy and have not been anxious since about the 
legacy of 1989.
    China's rulers were, in fact, deeply worried twenty-five years ago 
by what was happening, particularly by the mass gatherings of first 
students and then others as well at Tiananmen Square, a symbolically 
significant site where official ceremonies are often held and buildings 
and monuments stand that the government relies on to tell stories about 
the past that make Communist Party rule seem justified. And there is 
ample evidence that they remain worried to this day by 1989's legacy. 
Despite all the ways that China has changed, after all, while the Party 
has given up its initial strategy of talking a lot about 1989 and 
trying to persuade the populace to accept its skewed version of events, 
it has for more than two decades now devoted considerable energy to 
imposing what Lim and others have aptly called a state of ``amnesia'' 
about the year on the populace at large. In addition, many other things 
that the government has done in recent years are best understood as 
shaped in part by a determination to avoid facing a situation like 1989 
again.
    Historians like me are prone to stress with many phenomena that 
paying attention to the past can help place the present into a clearer 
perspective, but history is relevant to 1989 in particularly striking 
and complex ways. One reason is that protesters and their opponents 
both made important uses of historical analogies twenty-five years ago. 
Before the battle in which troops of the People's Liberation Army were 
deployed, there were crucial battles of words and symbols, in which 
both sides often invoked the past. The degree to which students did 
better than the government in using historical arguments and symbols in 
April and May of 1989 helps explain why the latter made such desperate, 
brutal moves that June. Much Western commentary at the time and since 
has referred to parallels and connections between Chinese events and 
things taking place in or associated with other parts of the world. 
Many international factors were important twenty-five years ago, when 
inspiring protests were unfolding in Eastern and Central Europe, when 
some Chinese protesters expressed admiration for Mikhail Gorbachev 
(whose summit trip to Beijing brought foreign camera crews to the 
country who would end up covering demonstrations more than meetings 
between officials), and when some demonstrators nodded to American 
symbols (such as the Statue of Liberty) and slogans (from ``Give Me 
Liberty or Give Me Death'' to ``We Shall Overcome''). Ultimately, 
though, it is the centrality of debates, arguments and symbols rooted 
in China's own past that stand out as especially pertinent.
    How exactly did students invoke history? They made two basic 
historical claims--and were joined on the streets by workers, 
intellectuals, journalists and others in part because these appeals to 
history resonated, as did the general criticism the students made of 
the economic fruits of reform seeming to benefit disproportionately 
officials and their kith and kin. The students insisted that they were 
following in the footsteps of the patriotic heroes of 1919's May 4th 
Movement, a student-led mass struggle as well known in China as the 
Boston Tea Party is in the U.S., and something that, similarly, is 
assumed by all sides to be worthy of celebrating, even as there are 
battles over who has the best right to claim its mantle. The students 
also presented Deng Xiaoping and his allies as behaving in ways that 
brought to mind the irrationality of the Cultural Revolution era, which 
so many Chinese looked on as a benighted time whose mistakes should 
never be repeated.
    The Chinese authorities countered these two claims by insisting 
that they, not the students, were inheritors of the May 4th tradition 
and that the protests threatened to hurtle the country back into a 
state of Cultural Revolution-like ``turmoil.'' They had made moves like 
that latter one during the protest wave of 1986-1987 that began in 
Hefei and peaked in Shanghai (I was an eyewitness observer of those 
events, though I was not in China in 1989), and this sort of rhetoric 
had helped convince students to return to classes. In 1989, though, the 
government's invocations of history largely fell flat. It was far from 
insignificant to China's rulers that students were being seen in 1989 
as coming closer than they did to embodying cherished national ideals. 
A pivotal symbolic moment came when the government's annual efforts to 
commemorate the May 4th Movement as part of ``their'' legacy were 
upstaged by student actions. On the seventieth anniversary of the 1919 
struggle, the most notable gathering was one by students in Tiananmen 
Square. Standing near a marble frieze showing patriotic students of the 
May 4th generation calling on workers to join them in helping their 
country stand up to foreign bullying and domestic misrule, members of 
the Tiananmen generation read out a ``New May 4th Manifesto,'' a 
rousing document demanding change.
    China's leaders cared deeply that the protests were calling into 
questions core old and important new stories they liked to tell and 
needed to tell to legitimate their rule, from the notion that official 
corruption and authoritarianism were problems of the pre-1949 past as 
opposed to the present, to the idea that the Communist Party had begun 
to move in a dramatically new direction since Mao Zedong's death in 
1976. Interestingly, as Wang Chaohua, a leader of the 1989 protests who 
went on to earn her doctorate in the United States and is now a 
Southern California-based public intellectual, pointed out at a recent 
UCLA forum, one thing that added force to the student charge that Deng 
Xiaoping and company were replaying Cultural Revolution patterns was a 
series of shifts in the top echelons of the Communist Party. A worrying 
hallmark of the last years of Mao's rule was that he periodic launched 
attacks on those closest to him, including two successive heirs 
apparent, Liu Shaoqi and then Lin Biao. Many Chinese viscerally 
experienced these attacks because criticism of Liu and Lin was combined 
in each case with mass campaigns to promote ideological purity. It 
seemed by the early 1980s that, to the relief of many, this combination 
of high party politics and public campaigns had ended, but that hope 
was undermined in 1987 when Hu Yaobang was stripped of his highest 
post, that of General Secretary of the Communist Party (even though 
allowed to retain a largely honorific position within the government), 
and an ``Anti-Bourgeois Liberalization'' drive was launched.
    This pattern was then repeated during 1989, when Hu's successor 
Zhao Ziyang, who had been targeted in some early student posters as one 
of the many top officials whose family members were benefitting 
unfairly from the economic reforms, ended up becoming the second heir 
of Deng in a row to fall for taking too ``soft'' a line toward a 
protest wave. Once again, though in a way far more devastating than the 
drive against ``bourgeois liberalization'' of 1987, this shift in heirs 
was linked to a broad campaign, in this case to rid the country of 
``counter-revolutionary'' elements, such as 2010 Nobel Peace Prize 
recipient Liu Xiaobo and other alleged ``black hands'' behind the 
protests.
    Turning from historical argument during 1989 to China's more recent 
political history, two things are particularly important to note. One 
is that, while the June 4th Movement was crushed, the Communist Party, 
in seeking to avoid future large scale protests of a similar sort, has, 
in a sense, given in to some student demands of the time while refusing 
to budge on others. Among the many wishes of 1989's youths was to see 
the Party back off from micromanaging their private lives, allowing 
them more freedom to do things such as listen to music they liked, 
socialize on campuses as they wanted, and read more widely in 
international literature. With some important exceptions (such as tight 
censorship of foreign publications dealing with hot button issues, from 
Tibet and the Dalai Lama to the events of 1989 themselves), later 
generations of Chinese students have been able to have private lives of 
the sort their predecessors dreamed of. It is easy to check off areas 
where the government has not budged, of course, including not only 
regarding calls for political liberalization and more democracy, but 
also the demand that the authorities admit that 1989's protesters were 
patriots acting to improve the country, not hooligans trying to destroy 
it. Still, partial victories in amid defeat should be acknowledged.
    The second way in which the government's desire to avoid facing 
another challenge like that of 1989 matters is it helps us make sense 
of officials responses to protests in the 1990s and in the opening 
years of the 21st century. International currents certainly matter 
here. China's rulers have spent a lot of time trying to figure out how 
best to prevent local variants of Poland's Solidarity or Arab Spring 
uprisings from taking place. There are also special factors involved in 
the harsh ways that the Communist Party has dealt with unrest in Tibet 
and Xinjiang. Still, a concern with trying to avoid what top officials 
see as mistakes they made in 1989--the main error in their minds, I 
think, not the use of force but allowing the struggle to grow as large 
as it did before that point--has influenced government responses to 
many outbursts. And in a sense, even the fear of Solidarity, Arab 
Spring, Color Revolutions and the like, as well as policies toward 
Tibet and Xinjiang, are inflected a degree by concern with what 
happened in April-June 1989.
    I've written extensively about this topic elsewhere, as have 
others, but in a nutshell, the government's approach to protest since 
1989 has been to take particularly strong lines against outbursts that 
show (a) any degree of organization, (b) draw together people of 
different social groups, and (c) link people in different parts of the 
country. These were all key features of the June 4th Movement. When 
protests take place that do not have any of these characteristics, the 
government is sometimes willing to deal with them gently, perhaps give 
in to some specific demands made by those who take to the streets, and 
see them as a way that people can let off steam. Some leaders may be 
punished, some concessions given are then taken back, and so on, but a 
flexible and measured approach is common. On the other hand, when one, 
two or especially all three of the factors just listed come into play, 
even something that is totally unlike the 1989 protests in terms of 
specifics will be dealt with severely. The classic example here is the 
harsh crackdown on Falun Gong after the organization staged a large-
scale sit-in in central Beijing in April 1999. But, more recently, it 
also seems fair to say that one of the reasons for the brutal means 
used against activists in Tibet and Xinjiang is the government's 
concern that protests there quickly connect people of different social 
groups and disparate locals within the large regions that have 
significant Tibetan or Uighur populations.
    Much more could be said not just about the issues raised above, but 
also about the kinds of grievances that agitate people in China now and 
bring them to the streets in tens of thousands of protests a year, and 
about how the concerns expressed in current outbursts at times echo and 
at times diverge from those that exercised 1989's demonstrators. And I 
would certainly be happy to answer questions about current protests as 
well as about 1989 and its legacy during the May 20 CECC Hearing. What 
I hope at least to have demonstrated in this short statement is that 
the events of April-June 1989 were very far from being ``much ado about 
nothing'' and that placing them into historical perspective is not just 
of some use but crucial to understanding China's recent past and 
China's complicated present.
                                 ______
                                 

  Prepared Statement of Hon. Sherrod Brown, a U.S. Senator From Ohio; 
         Chairman, Congressional-Executive Commission on China

                              may 20, 2014
    Today, we remember an event that occurred 25 years ago, but that 
continues to resonate in so many ways.
    Twenty-five years ago, millions of people across China--not just in 
Beijing's Tiananmen Square, but across China--rallied in support of 
democracy, human rights, and an end to corruption.
    Like many Americans at the time, I was inspired and moved by their 
courage and their pursuit of those fundamental freedoms--freedoms that 
we hold dear--and at times--take for granted.
    I recall the optimism of that moment and how it was crushed when 
the troops and the tanks rolled in.
    Today, we assess what the last 25 years have meant and what our 
policy toward China should be going forward.
    In my view, opportunities were missed after Tiananmen.
    We missed an opportunity to integrate China into the global 
community, while also ensuring that our economic interests were 
protected and that China moved in the right direction on political 
reform.
    Not an easy task, to be sure, but 25 years later, China is still a 
fundamentally undemocratic country and one that stubbornly refuses to 
play by the international rule of law.
    In many respects, China reaped the benefits of open trade with the 
rest of the world, while avoiding many of its obligations.
    Today, 800 million Chinese people still do not enjoy the basic 
right to vote.
    Chinese citizens, including those who in recent weeks have bravely 
tried to commemorate Tiananmen, are imprisoned--simply for peacefully 
exercising their rights to free speech, assembly, and religion. These 
include human rights lawyer Pu Zhiqiang and writer Hu Shigen.
    A generation of people--inside and outside China--knows little 
about the events that transpired 25 years ago, other than the 
government's official line.
    Emboldened by growing economic clout that we in many ways 
supported, China's Communist leaders are sowing instability through 
alarming and increasingly risky attempts to exert its territorial 
claims in the region.
    And just yesterday we were reminded of the lengths China will go to 
gain an unfair advantage for its state-owned enterprises and 
industries. The Department of Justice charged five members of China's 
People's Liberation Army with hacking into the computers networks of 
the United Steelworkers Union and major U.S. companies like U.S. Steel, 
Alcoa, and Allegheny Technologies. And this is just the tip of the 
iceberg.
    In 1989, our trade deficit with China stood at $6 billion.
    By 2013, the trade deficit had grown more than 50 times to $318 
billion--the highest ever. That trade deficit and China's currency 
manipulation has cost Americans millions of jobs.
    In the end, we compromised too much and bought into the myth that 
China's economic integration after Tiananmen would inevitably bring 
about human rights and respect for international rules.
    In my view, that's not what happened.
    The question now is, how do we fashion a better policy toward 
China?
    Through this Commission, we have tried to honor the memory of 
Tiananmen by making sure China's human rights and rule of law record is 
not forgotten in our discussions over China.
    Over the past year, we have highlighted many concerns--cybertheft, 
threats to democracy in Hong Kong, illegal and unfair trade practices, 
denials of visas to foreign journalists, food safety, environmental, 
and public health concerns, and a crackdown on human rights activists, 
including Ilham Tohti, a peaceful advocate for the Uyghur minority 
group.
    In the Senate, I have pushed a bipartisan bill to combat China's 
currency manipulation.
    It is my hope that we have an open and transparent debate about our 
China policy--whether it be on trade agreements that relate to China or 
on growing Chinese foreign investment in this country.
    Our debate must give proper weight, rather than ignore our concerns 
over human rights, the rule of law, labor, public health, and the 
environment.
    Above all, the debate must include all segments of our society, 
from our workers and small businesses, to NGOs and human rights groups, 
instead of just being led by powerful interest groups such as large 
corporations, some of which have a checkered history with China.
    It is only in doing so, and continuing to work for improvements on 
China's human rights and rule of law record, that we can faithfully 
honor the memory of Tiananmen and ensure that the sacrifices were not 
made in vain.
                                 ______
                                 

  Prepared Statement of Hon. Christopher Smith, a U.S. Representative 
  From New Jersey; Cochairman, Congressional-Executive Commission on 
                                 China

                              may 20, 2014
    Twenty-five years ago the world watched as millions of Chinese 
gathered, all across China, to peacefully demand political reform and 
democratic openness. The hopes and promises of those heady days ended 
with needless violence--tears, bloodshed, arrests and exile.
    We must continue to honor the sacrifices endured by the pro-
democracy movement, by advocates for independent labor unions, and 
those demanding fundamental human rights for all Chinese. Mothers lost 
sons, fathers lost daughters, and China lost an idealistic generation 
to the tanks that rolled down Tiananmen Square on June 4th, 1989.
    Tiananmen Square has come to symbolize the brutal lengths the 
Chinese Communist Party will go to remain in power.
    We remember Tiananmen annually here in Congress because of its 
enduring impact on U.S.-China relations. We remember it also because an 
unknown number of people died, were arrested, and exiled for simply 
seeking universally-recognized freedoms. And we will continue to 
remember Tiananmen until the Chinese people are free to discuss openly 
the tragic events of June 3-4, 1989, without censorship, harassment, or 
arrest. We in Congress remain committed to the people of China 
struggling peacefully for human rights and the rule of law.
    The prospects for greater civil and political rights in China seems 
as remote today as it did the day after the tanks rolled through the 
Square. In 1989 the Chinese government used guns and tanks to suppress 
the people's demands for freedom and transparency. In 2014 they use 
arrests, discrimination, torture, and censorship to discourage those 
who seek basic freedoms and human rights.
    The means may change, but the ends remain the same--crush dissent 
at all costs because it challenges the authority of the Communist 
Party.
    This has been one of the worst years, in the recent memory, for the 
suppression of human rights activists and civil society. Xi Jinping's 
tenure as President, which started with so much promise of new 
beginnings, has proven that the old tactics of repression will be used 
liberally against dissent.
    Top Communist Party leaders regularly unleash bellicose attacks on 
``universal values'' and ``Western ideals.'' In the past year, over 220 
people have been detained for their defense of human rights.
    The more things change in China, the more they stay the same.
    While the hopes of the Tiananmen Square demonstrators have not yet 
been realized, their demands for freedom of speech, basic human rights, 
political reforms and the end of government abuse and corruption, 
continue to inspire the Chinese people today. These are universal 
desires, not limited by culture or language or history.
    There is an impressive and inspiring drive in Chinese civil society 
to keep fighting for freedom under very difficult and dangerous 
conditions. This drive is the most important asset in promoting human 
rights and democratization in the country. If democratic change comes 
to China, it will come from within, not because of outside pressure.
    U.S. policy, in both the short and long-term, must be, and be seen 
to be, supportive of advocates for peaceful change; supportive of the 
champions of liberty, and of those Chinese civil society seeking to 
promote rights and freedoms for everyone, not only to pad the economic 
bottom-line.
    Our strategic and moral interests coincide when we seek to promote 
human rights and democratic openness in China. A more democratic China, 
one that respects human rights, and is governed by the rule of law, is 
more likely to be a productive and peaceful partner rather than 
strategic and hostile competitor.
    This future should also be in China's interests, because the most 
prosperous and stable societies are those that protect religious 
freedom, the freedom of speech, and the rule of law.
    We in Congress remain committed to the people of China struggling 
for universal freedoms and we urge the Chinese government to learn from 
the past and embrace the greater openness, democracy, and respect for 
human rights that its people called for 25 years ago, and continue to 
call for today.

                                 <all>

</pre></body></html>
